<html>
<title> - FEDERAL, STATE, AND LOCAL ROLES IN RAIL SAFETY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
             FEDERAL, STATE, AND LOCAL ROLES IN RAIL SAFETY

=======================================================================

                                (110-66)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

             RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                      AUGUST 9, 2007 (Norwalk, CA)

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                    U.S. GOVERNMENT PRINTING OFFICE
37-369                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

?

     SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                   CORRINE BROWN, Florida Chairwoman

JERROLD NADLER, New York             BILL SHUSTER, Pennylvania
LEONARD L. BOSWELL, Iowa             THOMAS E. PETRI, Wisconsin
JULIA CARSON, Indiana                WAYNE T. GILCHREST, Maryland
GRACE F. NAPOLITANO, California      STEVEN C. LaTOURETTE, Ohio
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               GARY G. MILLER, California
BRUCE L. BRALEY, Iowa                HENRY E. BROWN, Jr., South 
TIMOTHY J. WALZ, Minnesota           Carolina
NICK J. RAHALL II, West Virginia     TIMOTHY V. JOHNSON, Illinois
PETER A. DeFAZIO, Oregon             TODD RUSSELL PLATTS, Pennsylvania
JERRY F. COSTELLO, Illinois          SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JIM GERLACH, Pennsylvania
ELIJAH E. CUMMINGS, Maryland         MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            LYNN A. WESTMORELND, Georgia
DANIEL LIPINSKI, Illinois            JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (ex officio)
  (ex officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Beilke, Ron, Mayor, City of Pico Rivera..........................    16
Clark, Richard, Director, Consumer Protection & Safety Division, 
  California Public Utilities Commission.........................    16
Eby, Clifford, Deputy Administrator, Federal Railroad 
  Administration.................................................     6
Ojeda, Jesus, Presenter-Trainer, California Operation Lifesaver..    35
Richmond, Rick, Executive Director, Alameda Corridor-East 
  Construction Authority.........................................    16
Roberts, Chris, Regional Vice President, South Operations, 
  Burlington Northern Santa Fe Railroad..........................    35
Spence, David, Mayor, La Canada Flintridge.......................    16
Smith, Tim, California State Legislative Board Chairman, 
  Brotherhood of Locomotive Engineers............................    35
Wickersham, David, Chief Engineer, Western Region, Union Pacific 
  Railroad.......................................................    35

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Brown, Hon. Corrine, of Florida..................................    48
Johnson, Hon. Eddie Bernice, of Texas............................    57
Oberstar, Hon. James L., of Minnesota............................    66

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Beilke, Ron......................................................    68
Clark, Richard W.................................................    75
Eby, Clifford....................................................    80
Ojeda, Jesus.....................................................   101
Richmond, Rick...................................................   105
Roberts, Chris...................................................   125
Smith, Timothy L.................................................   137
Spence, David....................................................   146
Wickersham, Dave.................................................   152

                       SUBMISSIONS FOR THE RECORD

Brown, Hon. Corrine, a Representative in Congress from the State 
  of Florida, questions for Chris Roberts, submitted by Senator 
  Feinstein, including response..................................    53
Eby, Clifford, Deputy Administrator, Federal Railroad 
  Administration, response to questions from Rep. Napolitano.....    93
Napolitano, Hon. Grace F., a Representative in Congress from the 
  State of California:

  Board of Supervisors County of Los Angeles, Gloria Molina, 
    County Supervisor, written statement.........................    61
  Photo, Railroad I.C., City of Industry, March 8, 2005..........    65
Richmond, Rick, Executive Director, Alameda Corridor-East 
  Construction Authority, slide presentation.....................   114
Wickersham, David, Chief Engineer, Western Region, Union Pacific 
  Railroad, response to questions from the Subcommittee..........   156

[GRAPHIC] [TIFF OMITTED] T7369.001

[GRAPHIC] [TIFF OMITTED] T7369.002

[GRAPHIC] [TIFF OMITTED] T7369.003

[GRAPHIC] [TIFF OMITTED] T7369.004

[GRAPHIC] [TIFF OMITTED] T7369.005

[GRAPHIC] [TIFF OMITTED] T7369.006



    FIELD HEARING ON FEDERAL, STATE, AND LOCAL ROLES IN RAIL SAFETY

                              ----------                              


                        Thursday, August 9, 2007

                   House of Representatives
     Committee on Transportation and Infrastructure
        Subcommittee on Railroads, Pipelines and Hazardous 
                                                  Materials
                                                       Norwalk, CA.
    The Subcommittee met, pursuant to call, at 3:00 p.m., in 
Norwalk City Council Chambers, Norwalk Municipal Center, 12700 
Norwalk Blvd., Norwalk, California, Hon. Corinne Brown 
[Chairwoman of the Subcommittee] presiding.
    Present: Representatives Brown, Napolitano, and Johnson.
    Also Present: Representative Sanchez.
    Ms. Brown. Will the Subcommittee on Railroads, Pipelines 
and Hazardous Materials come to order. The Subcommittee is 
meeting today to hear testimony on Federal, State, and local 
roads and railway safety. I want to thank the Norwalk City 
Council for their hospitality and then letting us hold our 
hearing in their chamber.
    I also want to thank my friend, Congresswoman Grace 
Napolitano, for inviting us to her district to hold this 
hearing today, and I want you to know that we have been working 
on this hearing for over six months, ever since I became 
Chairperson, and I have also learned, I am sure, as local 
people know, that you cannot tell her no, that you will have to 
work it out.
    Rail safety is a growing concern in California. When 
Congress last reauthorized the FRA in 1994, California had 129 
train accidents, of which 54 were due to human factors and 43 
were due to track defects. In 2006, California had 189 train 
accidents, of which 64 were due to human factors and 54 were 
due to track defects.
    While total grade crossing incidents and injuries are down, 
fatal grade crossing incidents have increased. In 1994, FRA 
reported 30 grade crossing incidents that resulted in 43 
fatalities in California. In 2006, 34 grade crossing incidents 
resulted in 36 fatalities.
    After numerous hearings on rail safety, the Committee on 
Transportation and Infrastructure reported a comprehensive rail 
safety bill that will address many of the safety problems being 
faced by the rail industry, both in California and in the rest 
of the Nation.
    This legislation, which will soon be considered by the 
whole House, makes numerous improvement to rail safety, 
including requiring the Secretary of Transportation to develop 
a long-term strategy for improving rail safety, improving 
safety at grade crossings, strengthening hour-of-service laws, 
improving worker training, requiring new rail safety 
technologies, and strengthening employee whistleblower 
protections.
    But for these safety measures to be effective, we must 
remain vigilant. States and localities must work with the 
Federal Government and help ensure compliance with Federal-
mandated safety standards. Finally, rail carriers must be wary 
of the dangers their operations pose to communities.
    I want to thank our witnesses for joining us today. I look 
forward to hearing their ideas on how Federal, State, and local 
governments can work together to enforce safety laws and 
improve rail safety.
    Before I recognize the witnesses, I want to acknowledge 
that the Mayor is here and I will let you introduce the Mayor.
    Ms. Napolitano. Mayor Rick Ramirez.
    Mayor Ramirez. Good afternoon. How is everybody doing 
today? We would just like to invite you--it is an honor and a 
privilege to have such a meeting hosted here, in the city of 
Norwalk, and I would like to welcome our distinguished Member 
of Congress here to talk about rail safety and issues that 
affect this region.
    I hope that a lot of good will come out of this Committee 
meeting and that a lot of the issues would be addressed today. 
It takes a collaborative effort of local, State and Federal 
officials, working together, to address issues that effect this 
region. So on behalf of the City Council, and the city of 
Norwalk, we would like to welcome everyone here this afternoon. 
And we ordered this special weather for you this afternoon, 
clear skies and warm weather. So again, thank you and welcome 
to the city of Norwalk.
    Ms. Brown. Thank you. Thank you, Mr. Mayor. I want you to 
know, I appreciate the weather. I am just leaving Dallas, and 
Florida, and Washington, where it was over a hundred. Thank 
you.
    Before I recognize other Members for their opening 
statements, I ask unanimous consent to allow 14 days for all 
Members to revise and extend their remarks, and to permit the 
submission of additional statements and materials by Members 
and witnesses.
    Without objection, so ordered.
    Also, I would like to ask unanimous consent for 
Congresswoman Sanchez, and any other Members of Congress, to 
participate in today's hearing, to sit and ask questions of the 
witnesses. Welcome, Congresswoman.
    And now the Congresswoman whose district we are in, Mrs. 
Napolitano, I recognize you for your opening remarks.
    Ms. Napolitano. Thank you, Chairwoman Brown, for holding 
the hearing ``in my backyard,'' so to speak, and I thank my 
colleagues, Congresswoman Johnson and Sanchez for being with us 
for this very important hearing, and welcome to the 38th 
Congressional District.
    My district has the most congested urban rail quarters in 
the country. We have over 160 trains traveling through my 
district every day, 90 on the Union Pacific and 70 on the BNSF. 
You can see 14,000 containers, or more, traveling through this 
hearing, many of them carrying hazardous material, which is a 
great concern to my electorate and my constituency.
    Although we transport over $400 billion worth of trade, we 
need to ensure that we are working in a collaborative way to 
continue working towards the diminishing of the accidents and 
the fatalities, and of everything that we know can happen.
    Just in my district alone, there are over 3 million people 
that live and reside in the areas that are polluted by the cars 
waiting to get through the crossings, and many of the railroad 
tracks, as we well know, run adjacent to residential areas.
    And of course the major commuter and business corridors 
have those rails going right through those areas. Commuters are 
necessarily burdened by traffic delays at grade crossings, the 
air quality issues due to pollution from the engines, from the 
cars and trains, noise from whistles at night, from the rail 
cars, and of course the safety concerns because we have had 
derailments in our ``back yard,'' so to speak.
    And we have had, in one year, between October 2004 and May 
2005, five derailments. So we are very cognizant of what can 
happen. Thankfully, there were no fatalities, but there was a 
loss in the millions of dollars, not only to homes and to 
businesses, but cause great anxiety in our communities.
    We need to increase the cooperation of the railroads, the 
communities, the State, the Federal, and the counties, for rail 
safety in urban areas.
    We need to continue working together, and I know there has 
been a great effort, and I thank UP, and BNSF is coming very 
nicely with talking to us, and Lupe, she has been at every 
meeting we have had since May meeting, on days, when we were 
sitting at the table, trying to figure out how do we get the 
railroads to comply with the needs of our communities.
    And is Judge Schneider here? Thank you, sir, for being 
here. You said you would come. Union Pacific legal 
representative. And we have been at the table for many hours in 
the last, I would say what? four years.
    So I have seen a lot of the changes which are very 
beneficial to the community, especially when they turned most 
of the Alameda Corridor into new rail and new concrete ties.
    And that's a great benefit. Now we need to start working on 
collaborative efforts with communities, the schools, the 
groups, so that your youngsters know that rail barriers are not 
open to pedestrian traffic. It is a misdemeanor to be in those 
private areas, and we need to tell them how important it is for 
them not to ``play chicken,'' trying to move into areas where 
they can get killed. We have had those already. We don't need 
anymore.
    So we would want to ensure that this hearing--thank you, 
Chairwoman Brown, for continuing to push the big safety factor 
of the transportation area in your Committee. Stronger 
standards for railway inspectors are needed, so that we are 
ensured that not only is the equipment and the maintenance of 
such equipment safe enough to be able to traverse our areas, 
but that those employees are also protected.
    The amendments. We need to ensure that they receive the 
maximum of training necessary to be able to carry out their 
trust. There are a lot of other things. I would rather just go 
ahead and say to all of the witnesses, to the people who are 
here, thank you so much, and especially to my colleagues, 
because this truly is an area that deserves to be able to have 
a gathering of those individuals who care about the safety of 
the community and the safety of the railroad and its people, 
because they are one of our biggest economies in the area and 
they bring us prosperity. But we need to work together and have 
them understand how their actions can affect the safety of our 
communities.
    Thank you, Madam Chair. There are a lot of other things, 
that I'll put them in writing, and I appreciate you being here.
    Ms. Brown. Thank you, Congresswoman. And Congresswoman 
Johnson, your opening remarks.
    Ms. Johnson. Thank you very much. Let me express my 
appreciation to the Mayor, and various officials here. in the 
city, for welcoming us, and thank the witnesses for being here.
    I am going to ask unanimous consent that I file my entire 
statement and simply make some opening remarks.
    We all struggle to attempt to answer and correct many 
problems, and it is a partnership between the public and the 
railroads. The railroads are vitally important, most especially 
to my State, and we have a lot of accidents. Most of them 
happen at rail crossings, and we had a conversation en route 
here, where I talked about some of the things that we had done 
at home with public education, with PTAs and neighborhood 
groups, to make sure that safety activities would be understood 
and practiced by our citizens.
    It does not take the responsibility
    away from railroads but we hope that working in partnership 
with many young people, and people who think they can beat the 
train, and what have you, that we can improve this together.
    It is extremely important and there is no way that I can 
deny that we have had plenty. In Texas, many of them have been 
a little different than what the Congresswoman here was telling 
me about. We have not had so many in our urban areas. But we 
have had the hazardous waste, where chlorine was wasted near 
San Antonio, and various places, and we could probably go on 
and on about some of the things that have happened. But we have 
passed a rail safety bill out of Committee and probably, upon 
our return to Washington, we will take it up.
    And so I thank you for showing the interest, and I feel 
very certain, with attention being given to this problem by 
railroads, and our citizenry, cause we can't live without each 
other, that we will solve this problem, working together. Thank 
you, and I yield back the balance of my time.
    Ms. Brown. Congresswoman Sanchez.
    Ms. Sanchez. Thank you. I want to, first and foremost, 
thank Chairwoman Brown for convening this very important 
hearing and for allowing me to participate in it as well. I 
would also like to thank Congresswoman Grace Napolitano for 
persuading our learned Chairwoman to hold this hearing right 
here in our region, in Southern California, and my regards to 
Congresswoman Eddie Bernice Johnson who has traveled to be with 
us here today, and to all my colleagues for their contributions 
to the issue of rail safety.
    The leadership of these colleagues, as well as that of 
State and local leaders, and safety advocates, is incredibly 
important as we consider the issues before us today. Sadly, 
issues related to railroad safety and operations are among 
those that only capture public attention when something 
catastrophic happens, and for many of us in this region, we had 
a tragedy that happened on October 16th, 2004, that really made 
us sit up and take notice.
    We had a Union Pacific freight train, that was traveling at 
about 60 miles an hour, that derailed in my district, and that 
train slammed into two homes and several backyards in West 
Whittier.
    Fortunately, in that particular accident, no one was killed 
or seriously injured. But it served as a wakeup call for all of 
us to start thinking about the issue of railroad safety. To 
that end, I joined my colleague, Congresswoman Napolitano, and 
county supervisor, Gloria Molina, to take a deeper look into 
the issues surrounding the Whittier derailment.
    With ever-increasing cargo shipments in and out of the port 
of Long Beach and Los Angeles, this is a growing issue of 
concern in this part of LA County, and beyond. We discovered, 
that while rail operations have been getting safer and safer 
over the past decades, derailments and other ail accidents 
still occur, often with horrible consequences for the people 
who work on the trains, as well as those who live near the 
railroad lines.
    The bottom line is that we must consistently push the rail 
industry and rail regulators to do everything that they can to 
try to make rail transport as safe as it can be.
    I am very pleased that this year, Congresswoman Napolitano 
was selected to become a Member of the Transportation and 
Infrastructure Committee. I know that she is using her energy 
and her experience on rail issues to be a strong advocate for 
rail safety in our region and across the country.
    After the Whittier derailment, Congresswoman Napolitano and 
I, along with Supervisor Molina, pressed the Union Pacific to 
increase its inspections of the tracks in our region, and it 
took a little bit of pushing, but I am pleased to report that 
Union Pacific ultimately did just that.
    We then successfully pushed the U.S. Congress to enact into 
law the rail safety recommendations made by the National 
Transportation Safety Board, after the Whittier accident.
    Personally, because I come from a labor background and I 
have experience in protecting workers in dangerous occupations, 
and so I take very seriously the concerns and recommendations 
from workers themselves, who are involved in the ``day in and 
day out'' operations that we hear about from time to time, when 
there are problems.
    Edward Wytkind, the president of the Transportation Trades 
Department of the AFL/CIO, recently told a U.S. Senate panel, 
that the current training structure for rail workers is 
woefully inadequate. New employees are resigning and leaving 
the industry because they are dissatisfied with the quality of 
their training, uncertain of their skills, and uncomfortable 
with what they are asked to do, with limited support.
    And I am very concerned when I hear things like that. So I 
hope that there will be some discussion today about training 
issues related to safety and whether any improvements are 
needed in the rules we have for training rail employees.
    Lastly, I want to signal my strong support for 
Congresswoman Napolitano's efforts to give State rail 
regulators more power to order protective measures for local 
rail safety. As I think the panel will hear today, California 
has a good core of rail safety inspectors, and yet Federal 
preemption law prevents California from implementing many of 
the safety rules that could help in our heavily-used rail 
corridors.
    I think that there should be a way to craft a new rule that 
allows California, and other States, to push ahead on rail 
safety without unduly burdening railroads.
    In conclusion, I just again want to thank my colleagues, 
and I look forward to hearing the testimony from the witnesses, 
and I yield back the balance of my time.
    Ms. Brown. Thank you.
    Just one technical announcement. Parking will be validated 
in the back and will you just raise your hand. So if anyone 
needs their parking validated. Okay.
    And I am pleased to thank all of the witnesses for being 
here today, but I want to start with our first witness, who is 
Mr. Cliff Eby, the deputy administrator of the Federal Railroad 
Administration.
    We are pleased to have you here today. If you could limit 
your oral statement to five minutes, but your entire statement 
will appear in the record, and then we will have the question-
and-answer periods.
    Welcome.

   TESTIMONY OF CLIFFORD EBY, DEPUTY ADMINISTRATOR, FEDERAL 
                    RAILROAD ADMINISTRATION

    Mr. Eby. Chairman Brown, distinguished Members of the 
Subcommittee, I am very pleased to be here today, representing 
Secretary of Transportation Mary Peters and Federal Railroad 
Administrator Joseph Boardman.
    The FRA appreciates the opportunity to discuss Federal, 
State, and local roles in railroad safety. FRA's regulations 
address a wide range of topics and are based on knowledge and 
experience acquired over more than a century of railroading in 
America.
    The regulations specify minimum safety standards that 
railroads must satisfy, and, in practice, typically exceed.
    FRA continually evaluates existing regulations and 
currently has several active rulemakings underway. Our 
inspection staff of over 400 is distributed across eight 
regions. In addition, 165 State inspectors perform inspections 
for compliance with these Federal regulations.
    Each inspector is an expert in one of five areas: track, 
signals and train control, motive power and equipment, 
operating practices, or hazardous materials.
    FRA also employs 18 crossing safety and trespass prevention 
specialists.
    States and localities also play a vital role in assuring 
railroad safety as well. FRA sincerely values and appreciates 
the important contributions of States toward the shared goal of 
making sure railroads operate safely.
    Over nearly three decades, the number and rate of train 
accidents, deaths arising from rail operations, employee 
fatalities and injuries, and hazardous material releases all 
have fallen dramatically.
    Between 1978 and 2006, the total number of rail-related 
accidents and incidents declined 85 percent.
    In that time period, total rail-related fatalities have 
declined 45 percent.
    Grade crossing collisions and railroad trespassing deaths 
account for 97 percent of the 911 total rail-related deaths in 
2006.
    While the railroad industry's overall safety record is 
positive, FRA strongly believes that even a single death or 
injury is one too many.
    In light of the tragedy last week in Minneapolis, 
Minnesota, in which a highway bridge collapsed, I want to 
briefly mention FRA's involvement in overseeing the Nation's 
approximately 100,000 railroad bridges.
    Nearly all of these bridges were constructed prior to 1940 
and most are more than 75 years old. They are owned and 
maintained by privately-owned railroads. Given the generally 
excellent safety record of railroad bridges and the fact that 
most railroads already exceed the safety standards that FRA 
could incorporate in the regulation, FRA has not issued 
regulations in this area.
    However, record level rail traffic volumes and heavier 
carloads are placing demands on this critical infrastructure. 
So we have issued a statement of Agency policy on bridge safety 
as an appendix to the Federal track safety standards.
    FRA recognizes both the long-term and short-term 
implications of an event like last week's catastrophe and is 
developing a strategy to ensure the long-term viability of 
bridges, and other structures.
    A primary concern today is the issue of Federalism as it 
pertains to rail safety. We believe that there is emphasis that 
in establishing the rail safety preemption provision in 1970, 
and in subsequent amendments, including the amendment contained 
in H.R. 1, Congress struck a delicate balance.
    It favors national uniformity of railroad safety and 
security regulations, while preserving an appropriate role for 
States.
    FRA believes that balance is successfully achieved. Under 
the current statutory regime, States are free to regulate until 
the Secretary of Transportation issues a regulation or order 
covering subject matter. This provision works well by allowing 
States to address subjects not encompassed within Federal 
regulations, and conditions that are truly local in nature.
    It has worked specifically to the benefit of California.
    Other enforcement matters within the control of the State 
and local governments include the aspects of grade crossing 
safety and railroad trespassing. Issues such as the selection 
of appropriate traffic control devices, licensing of motor 
vehicle drivers, and appropriate sight distance at grade 
crossings are all matters of State law.
    Another statutory provision, originally enacted in 1970, 
provides a mechanism for States to recommend enforcement 
actions. In fact, every State has an opportunity to employ rail 
safety inspectors in all of the rail safety disciplines.
    Currently, 28 States actively participate in FRA's program, 
including California, which is one of the most vigorous in 
enforcing Federal Railroad regulations.
    States and localities also have opportunities for input 
into FRA's regulatory agenda. Like any other party, States may 
petition for rulemaking, to request that FRA adopt regulations 
on a particular subject and propose what regulations should 
say. A good idea to improve rail safety in California is a good 
idea for improving railroad nationwide.
    We strongly believe that States that want to play a larger 
role in regulating railroad safety should do so through the 
national regulatory process. Balkanizing regulation of railroad 
safety would likely roll back many of the safety gains attained 
over the past 30 years. That would ill-serve the national 
interest.
    FRA personnel strive daily to implement comprehensive 
initiatives for safety assurance and hazard mitigation, in 
order to make rail operation safer for the public and rail 
employees.
    We look forward to further discussions with the 
Subcommittee on reauthorization of the Federal Railroad Rail 
Safety Program and to bringing about the enactment of the 
administration's railroad safety bill. Thank you.
    Ms. Brown. Thank you. I met, last week, with the Secretary 
and we discussed the railroad safety bill, and as it moves 
forward, we will certainly be looking forward to a further 
dialogue and discussions. But I hope we all understand the 
importance of having a railroad safety bill at this time.
    And do you want to respond to that? And in addition, I want 
to thank you very much for including the discussion about the 
bridge safety in your testimony, and at this time, we have a 
excellent safety record as far as railroad bridge safety, but 
as we move forward, what mechanism do you have in place to 
ensure that we have the proper indexing and that we have 
checked the bridges as far as structural damage, because what 
happened last week, we have what? about 586 bridges in the 
country, and now each State is looking at how those that are 
structurally damaged, and what we need to do about it, and of 
course the discussion, of course later, is how you're going to 
fund the improvements.
    Because when Dwight David Eisenhower started the program 
some 50 years ago, it is now time for us to reinvest in the 
whole transportation area, whether it's sewer, water, bridges, 
railroads, mass transit. I mean, we have a major problem in 
this country and we have got to figure out how we are going to 
address it.
    Mr. Eby. Well, with respect to the railroad safety bill, I 
think we all agree that it's due time to have a railroad safety 
bill in place. One of the biggest provisions in that, the one 
that has gotten most discussion, is hours of service, and I 
think we all agree that railroad workers can work far too many 
hours.
    We think, at the FRA, that our regulatory approach to that 
would be the best approach. We think the issue of hours of work 
goes beyond limbo-time issues, and really needs scientific 
evidence that we have been establishing over years, in working 
with the RSAC, and to have that flexibility.
    With respect to bridges, this has been a focus of 
Administrator Boardman's now, for some time, and as a civil 
engineer, an interest of mine for a career, and at the FRA, in 
2007, we added three bridge engineers for a total of seven. We 
hope to add more bridge engineers in the future.
    Railroad bridges are unique. They, as I mention in the 
testimony, most of them are 75 years old, or more. They are 
very robust structures. Only half of them are steel or cast 
iron structures.
    Now surprisingly, there is 30-some percent of railroad 
bridges that are timber structures, and the remainder are 
masonry type structures. The standard that railroad bridges use 
is established by AREMA, the American Railway Engineering and 
Maintenance-of-Way Association, and those standards go back 
some 60 years.
    Railway bridges are rated in what is referred to as a 
Cooper rating, and that determines the maximum tonnage that a 
bridge can handle.
    The FRA requires that the railroads follow their inspection 
plans for those bridges, and almost all bridges are inspected 
once a year, and depending on tonnage, some more than that, 
quite more frequently than what the highway bridges inspection 
cycle is.
    We do have some concerns. Administrator Boardman has spoken 
to the AREMA group. He recently held a roundtable at the last 
RSAC meeting to look at the future, the next 30 years of 
railroad bridges.
    When they were originally designed, they were originally 
designed for steam locomotives, 75 years ago, and to be able to 
support that steam locomotive, so they can take_those bridges 
were designed to take_a single heavy load and then a series of 
lighter loads.
    Now with the heavier cars, we have the constant pounding on 
those bridges of every car that goes over them, even though the 
locomotive is lighter. And so we need to do continued research 
in this area to see, you know, is there an issue as heavier and 
heavier loads, more and more traffic goes over these bridges? 
We are looking at increasing the research in that area.
    But it is a strong focus of FRA, and particularly of 
Administrator Boardman.
    Ms. Brown. I want to commend one of my local railroads, 
CSX. When we had the bridge to go down in Mississippi, near New 
Orleans, we are still trying to get the Federal bridge back up, 
but CSX was up and operational, and rebuilt the entire bridge 
within months, after it went down.
    So, we, in the Federal Government, can learn something 
about building bridges from the private sector.
    One other thing. Will you update us on the status of DOT 
grade crossing safety action plan.
    Mr. Eby. The grade crossing safety action plan. One of the 
big components that we have been working on, quite a bit 
lately, is the State and local partnerships, and we just 
recently completed that effort with the State of Louisiana. We 
have had initial discussions with the State of Texas, and we 
are planning a partnership with Illinois, Ohio and California 
in the upcoming years.
    I believe that program stretches out through 2009. We have 
included in our legislation, and I believe in all the 
legislation that I have seen, a grade crossing inventory. It is 
very important that we collect the appropriate data on grade 
crossings.
    We have also recently completed a blocked crossing study 
that we submitted to Congress last year, and we are in the 
process of completing our private crossing study that is 
being--where we have met across the country, talking about 
private crossing issues.
    Ms. Brown. Ms. Napolitano.
    Ms. Napolitano. Thank you, Madam Chair.
    Sir, there is a whole bunch of questions, many of them I 
probably will be putting in writing, because there is just not 
enough time today. But one of the more salient issues that I 
have are the grade separations. As you are very well aware, the 
Alameda Corridor-East runs through my home district. 54 grade 
crossings.
    Now if we are going to have an increase in train traffic 
out of the ports to the rest of California, the Western States, 
and the rest of the country, that volume will increase to the 
point where it will be untenable in terms of pollution for the 
area, safety, because people will be waiting at those that are 
not grade separated.
    You name it. There is a detrimental effect to the district, 
and I don't know if we have a map that would show you, the 
whole corridor is affected.
    And I know that ACE is going to be testifying. There are 20 
of the 54 that are conceivably going to be grade-separated.
    What can FRA do to increase the number of grade 
separations, especially in the areas where it is so highly 
populated? Here, streets divide cities. So that means you can 
have less train speed, that is less time to get the product to 
market. It also will impact environment, and you are looking at 
the picture--do we have ...okay. As you can see from Los 
Angeles, the city of commerce, the upward line, the red line, 
UP, and then down towards the bottom will be--well, the black 
line is also UP. It is just mindboggling, the impact this has 
on our area, and I would like to ensure that we impress upon 
the Federal rail authority how important it is for us to 
continue building those separations, not only to be able to get 
the product to market on time but to be able to ensure the 
community's health in the environment, in the safety aspect of 
it.
    Could you tell me what--are you working with the State of 
California on that? Are you working with the ACE project? What 
can you tell us?
    Mr. Eby. Okay. Let me agree with you, that the safest grade 
crossing is one that is eliminated or closed, and with respect 
to the Alameda Corridor, you know, that project is, you know, 
one of the biggest success stories in the country from a 
public-private partnership standpoint, and in solving the 
congestion issue in that part of the corridor.
    Ms. Napolitano. But that just dumped it on us.
    Mr. Eby. Correct. The Secretary's congestion initiative is 
looking at, you know, the Southern California area. We have 
Randy Rogers, from the Maritime Administration, out here full 
time, and my counterpart at MARAD, Julie Nelson, out working as 
well, you know, looking at improvements in the whole area.
    We work very closely with Alameda Corridor East. Sharon 
Neeley does an outstanding job for this area, in the 
Washington, D.C., area, in obtaining funds. As you know, FRA 
has very little discretionary money and doesn't have money for 
infrastructure of that type.
    What we are looking at is improvements like what the 
Alameda Corridor is trying to do, you know, intelligent grade 
crossings and signage, improving the throughput, getting the 
trains through faster.
    Ms. Napolitano. That is not going to be enough, sir, and I 
can tell you, I will continue to fight for additional funding 
for the East Corridor, and while the Alameda Corridor itself 
was built underground, below level, they had to stop, and they 
should have built the rest of the corridor below ground, 
because then you would have the billions of dollars that we are 
going to be spending on grade separations, on sewers, on 
deteriorating environmental impact, on safety, the lives of 
people. What is that worth?
    And so it is something that we cannot overlook and should 
continue to press forward.
    States can play a very important role in assisting the FRA 
with ensuring safety along the rail lines, and while I agree 
that the current law should continue to prohibit States from 
creating regulations that burden interstate commerce, States 
should be allowed to regulate railroads in order to protect 
against local safety hazards.
    Do you feel States should be allowed to regulate railroads 
in areas where the Federal Government has not acted?
    Mr. Eby. Well, I believe that's the current law. Where 
there is no Federal Railroad regulation, States are free to 
adopt those regulations. You are talking about preemption, as 
discussed in my oral and written testimony, and not being an 
attorney, I would like to have that stand. But let me just give 
you my perspective on the whole preemption issue, because it is 
complex.
    I think most people prefer the consistency, the uniformity. 
You know, that is why you have your favorite department stores, 
your favorite coffee shops. You know what to expect, you know 
the level of service, you know what's required of you.
    The current system, I believe works very well, and a good 
example that I gave in the written testimony, with respect to 
the steep grades in California, and California's ability to 
require the railroads to follow a consist makeup, that they 
have in their operating rules.
    I think the existing program also, you know, is 
complemented with the State inspectors that we have, the RSAC 
process that allows for State, you know, State involvement, and 
then the ability for States and localities to propose 
regulations, you know, for Federal adoption.
    As I said, a safety rule that is good for California is 
probably very good for the national interest as well.
    Ms. Napolitano. Thank you. I yield back.
    Ms. Brown. Ms. Johnson.
    Ms. Johnson. Thank you very much.
    Mr. Administrator, I wonder if you could give us your 
opinion on whether we have enough staff to oversee and whether 
we are working State/Federal, State/local government together 
to address many of these problems.
    Or what do you consider to be the ideal way to approach 
solving these problems?
    Mr. Eby. Congresswoman, it is always tempting to jump at 
more resources, particularly staffing resources, when it comes 
to safety issues. The Inspector General's report, that came out 
last year, estimated that the FRA can only inspect .2 percent 
of the railroad incidents and accidents that occur in the 
Nation each year.
    Well, doubling the staff would bring that to .4 percent, 
and even if those numbers are wrong, we are talking in a very 
low range of ability to inspect everything.
    So, you know, FRA's approach, and what was included in our 
safety bill was a risk reduction program, and we think this is 
very important. We need to find smarter ways of identifying the 
risk hazards that are out there. We have been working a program 
called Close Call Reporting, in which we are asking railroad 
operating people to report close calls, accidents that didn't 
occur, so we can get a better understanding of where potential 
accidents will be.
    We also have collision hazard analysis that we are trying 
to encourage the railroads and commuter railroads, in 
particular, you know, to adopt, to look at where the real risks 
are? trying to find smarter ways of identifying these risks.
    So in terms of staffing, we have in our budget every year a 
slight increase in staffing. We try to identify those areas 
where we are going to learn something from the accident 
investigation, from the science that is needed in order to 
prevent accidents.
    Ms. Johnson. Thank you very much. I have no further 
questions.
    Ms. Brown. Ms. Sanchez.
    Ms. Sanchez. Thank you, and I appreciate your presence here 
today, Mr. Eby. Is that pronounced----
    Mr. Eby. Nearly everybody is saying eBay these days, but--
--
    Ms. Sanchez. Okay. I bet you wish you were the founder of 
eBay. You would probably be making a lot more money than you do 
working for the Federal Government.
    I just wanted to ask a couple of really brief questions.
    Of the accidents that FRA investigates, my understanding is 
that 40 percent of those accidents are due to human factors; is 
that correct?
    Mr. Eby. Correct.
    Ms. Sanchez. What role do you think that fatigue plays in 
the human factor percentage?
    Mr. Eby. I don't think we have a number that we have 
assigned to it, but----
    Ms. Sanchez. Give me ball park here.
    Mr. Eby. I would say 90 percent of all human factor 
issues--I can't believe that most operating, railroad operating 
people, you know, either have the intent or have--or are poorly 
trained. I think for the most part, it is a fatigue issue.
    Ms. Sanchez. It is a fatigue issue.
    And, internally, have there been any studies to look at 
issues of extreme fatigue, or even cumulative fatigue?
    Mr. Eby. Yes. We have been working for the past two to 
three years with research, and have a fatigue model that we are 
in the process of validating right now, that looks at circadian 
rhythms, that looks at weekend work, that looks at time, both 
quality of rest and quantity of rest.
    Ms. Sanchez. And have there been any recommendations for 
changing industry practices that might help reduce the fatigue 
factor, or for the risk of accidents?
    Mr. Eby. Well, this is what we are trying to strive for in 
our safety legislation, on the hours-of-service provision. We 
are hoping to have regulatory flexibility, so that we can 
implement, you know, the science associated with this and not 
have, you know, a very constrained, a prescriptive approach to 
hours of service.
    Ms. Sanchez. Okay, and I understand that, but my 
understanding is that if that is one of the largest 
contributing factors to accidents, that is maybe where you 
should focus a lot of your time and attention in terms of 
recommendations coming from studies that can help reduce the 
fatigue factor, so that therefore, in the long run, you will be 
reducing accidents.
    Mr. Eby. I agree.
    Ms. Sanchez. I want to speak with you, really briefly, 
about a statement that you made regarding the preemption 
standard in your oral remarks, and I was trying to concentrate 
and focus on your remarks, but did I hear you say that you did 
not necessarily favor States regulating rail issues because it 
could lead to the Balkanization of rail standards?
    Mr. Eby. Correct.
    Ms. Sanchez. Could you explain what you found by that 
remark, because I found that remark a little troubling, to be 
honest with you.
    Mr. Eby. Well, what I would expect would happen is you 
would have, you know, community after community adopting their 
own regulations, and if you kind of think of it from a highway 
perspective, you know, this section of highway will be allowed 
and the trucks will be in the left lane, this section of 
highway wouldn't have trucks at all, this section of highway 
would be, you know, all four lanes for trucks.
    And that not only the regulation but the interpretation and 
the fines, the penalties, the laws associated with that would 
create separate islands of regulation across the country, 
rather than a uniform, consistent standard, which I believe 
serves the national interest.
    Ms. Sanchez. And I can certainly understand how, taken to 
the extreme, each State having their own set of regulations and 
the differences in interpretations could be burdensome to 
interstate commerce.
     But sort of my fear is that if you use Federal preemption 
as sort of this blanket way of saying because it creates 
certainty, we ought to have the same standard across the 
country, but not necessarily the highest standard, or a really 
great standard, but, hey, we have got a national standard, and 
because it creates uniformity, that is good enough because it 
is certain.
    Do you sort of see what I am getting at?
    Mr. Eby. Yes. I certainly understand, and we do recognize 
that the FRA's regulations are the minimum standards that we 
expect railroads to meet.
    Ms. Sanchez. You just put your thumb on what I find the 
most troubling aspect, because if you have a uniform standard 
and it is the minimum, it is not doing what is required to 
protect safety, and that is my number one concern.
    I know that you mentioned, and my time is running short, 
that the FRA only investigates two-tenths of one percent of all 
accidents, and from what I understand from the DOT Inspector 
General reports, even though you're investigating a very 
minuscule number of accidents, you are not routinely using, 
reviewing locomotive event recorder data, police reports, and 
other sources of information to determine the causes of 
collisions or the need for further investigation.
    Is that a fair statement?
    Mr. Eby. The latter part is. Let me correct the first part 
in terms of--the .2 percent comes from an Inspector General's 
report. I am not sure of the data that went into that, and it 
was, you know, accidents, incidents, inspections that are 
required during the time. So it's not solely just accidents.
    We do tens of thousands of inspections every year, 
investigate hundreds of complaints, and we investigate the 
hundred most serious accidents with our inspection force.
    Ms. Sanchez. And when you investigate those accidents, do 
you routinely review locomotive event recorder data, police 
reports, and other sources of information, to find the causes?
    Mr. Eby. Yes. In a grade crossing accident, the hundred 
that we do full investigations, all that data is reviewed.
    Ms. Sanchez. Okay. But you would agree that a 100 
accidents, out of the total number of accidents a year, is 
still a very minuscule number of investigations?
    Mr. Eby. It is small; yes. Right now, we have, we average 
in railroad grade crossing accidents, there are about 3000 
accidents every year, and approximately one death per day in 
grade crossing accidents.
    Ms. Sanchez. Okay. Thank you. I appreciate your answers and 
I yield back.
    Ms. Brown. Thank you. Would you discuss the safety bill 
that we passed out of Full Committee that is headed to the 
floor, because I think there are some safety issues in there 
that we have addressed, that will improve hours of service, 
decrease risk, decrease hours on the clock, improve rail safety 
technology, better training, better track standards, more track 
inspections.
    I mean, I think there are some good things in the bill. We 
started out, initially, the railroads said at the first 
hearing, they didn't want any bill.
    Well, now, you can tell just from this hearing, that there 
are strong feelings that we need to have a safety bill, and in 
talking to the Secretary, she agrees, and the key is we need to 
pass the bill from the House and the Senate, and go to 
conference, and work with the administration to come up with a 
safety bill that will--we haven't had one in six years and it 
is really needed in this country.
    Mr. Eby. As I mentioned earlier, we commend the Committee 
for the hard work that it has done on the rail safety bill. We 
definitely need a rail safety bill.
    I think our major area of disagreement is under the, you 
know, the hours of service. While we both agree that railroad 
workers can work far too many hours, FRA would like regulatory 
authority to be able to establish regulations that are based 
on, you know, the science of fatigue, and not just focus on, 
you know, a small part of that which is limbo time.
    And in the other areas, as I recall, I think we are in full 
agreement. We would like to see the risk reduction program that 
we included in the Administration's safety bill, and we think 
that's a sound way of being able to reduce accidents in the 
railroad industry.
    The Administrator has gone on record saying that we expect 
a 50 percent improvement, if we can implement and work on some 
of the initiatives under the risk reduction program.
    Ms. Brown. Do you have any follow-up on my last question, 
Ms. Johnson?
    Ms. Johnson. Thank you, Madam Chair.
    Sir, you indicate that you do one-tenth of one percent of 
rail inspections, something to that effect. Two-tenths of one 
percent. Well, in your testimony, you indicate authorized 
inspection staff, 400, nationwide. How does that work, to be 
able to do the 3000 accidents, or derailments, or problems that 
you have every year, with 400 people?
    And I realize that States have their own too.
    Mr. Eby. Correct. We have 165 State inspectors.
    The 400 inspectors do not inspect all 3000 grade crossing 
accidents. We inspect the top 100 accidents from a severity 
standpoint in the railroad industry each year, and those 
include not only, you know, grade crossing accidents but train 
collisions, derailments and other accidents.
    Ms. Johnson. Do you have them placed strategically, in 
areas of greater, I want to say train traffic, for impact?
    Mr. Eby. Yes. Under the Rail Safety Action Plan, we have 
created a National Inspection Program, and this is a data-
driven approach to allocating our inspectors across the 
country. You know, where are the greatest risks? Where would 
those inspections provide the greatest benefit in terms of 
reduced accidents?
    We have looked at all five disciplines that we study. We 
have been implementing it now, fully, for about a year, but it 
started two years before. The initial program was with respect 
to track.
    And so those inspectors are allocated based on where we 
think we can get ``the best bang for the buck.''
    Ms. Johnson. Are these the same inspectors that check 
maintenance yards and follow through the rail inspectors work?
    Mr. Eby. Correct.
    Ms. Johnson. So besides doing their normal duty, they are 
also accident inspectors. What else do they do, sir?
    Mr. Eby. Well, as I mentioned, they're divided into five 
disciplines and----
    Ms. Johnson. Can you break them down by discipline?
    Mr. Eby. Yes. We have track----
    Ms. Johnson. Well, I am talking the numbers.
    Mr. Eby. Oh, the numbers?
    Ms. Johnson. Yes, because they are already expert in the 
disciplines, but how many are available to do rail maintenance 
inspection?
    Mr. Eby. I have those numbers here. We have 69 track 
inspectors, 53 signal inspectors, 84 equipment inspectors, 79 
operating practice--that is typically referred to as the human 
factors area--18 crossing and trespassing inspectors, and 33, 
they are kind of ``all other'' and in the management support 
area, of the four hundred. [Subsequently added during editorial 
work: 55 hazardous materials inspectors]
    Ms. Johnson. That kind a tells me you are very short-
handed, if you have calls for inspectors in specific 
disciplines. Thank you, Madam Chair. I yield.
    Ms. Brown. I want to thank you very much. Any closing 
remarks that you want to make?
    Mr. Eby. No. Thank you very much.
    Ms. Brown. Well, thank you very much for your testimony. 
Thank you.
    Panel two, and I know we were a little over with this 
particular panel, but I think it was necessary, and panel two, 
we are going to try to keep to the timeline because you are 
committed to tour the area at 6:00.
    I would like to welcome and introduce our second panel.
    Our first witness is Ron Beilke, and he is the mayor of the 
city of
     Pico Rivera. And our second witness is David Spence, and 
he is the chair of the coalition--where is Mr. Spence? Okay. 
And our third witness is Richard Clark, the director of the 
Consumer Protection and Safety Division for the California 
Public Utilities Commission. And our final witness on this 
panel is Rick Richmond, the Executive Director of the Alameda 
Corridor-East Construction Authority. Welcome.

  TESTIMONY OF RON BEILKE, MAYOR, CITY OF PICO RIVERA; DAVID 
 SPENCE, MAYOR, LA CANADA FLINTRIDGE; RICHARD CLARK, DIRECTOR, 
   CONSUMER PROTECTION & SAFETY DIVISION, CALIFORNIA PUBLIC 
   UTILITIES COMMISSION; RICK RICHMOND, EXECUTIVE DIRECTOR, 
          ALAMEDA CORRIDOR-EAST CONSTRUCTION AUTHORITY

    Mr. Beilke. Good afternoon, Madam Chairwoman, Members of 
Congress. Is it on? Now it is really loud.
    Good afternoon. As mayor of the city of Pico Rivera and a 
board member of the Gateway Cities Council of Governments, I 
thank you for the opportunity to address you today on the issue 
of railroad safety.
    I am proud to speak on behalf of the 27 cities and more 
than 2 million people that make up the Gateway Cities COGs, as 
well as for the 66,000 residents of Pico Rivera.
    While the concerns expressed in my testimony are based on 
our own experiences in Pico Rivera, you can rest assured that 
these same concerns are shared and echoed by every----
    Ms. Brown. Excuse me; just one second. Your mike----
    Mr. Beilke. I noticed that too.
    Ms. Brown. Do we have another mike that he can use?
    Mr. Beilke. Thank you. This is better. All right. I'll 
begin again. Thank you.
    As the mayor of the city of Pico River and a board member 
of the Gateway Cities Council of Governments, I thank you for 
the opportunity to address you today on the issue of railroad 
safety.
    I am proud to speak on behalf of the 27 cities and more 
than 2 million people that make up the Gateway Cities COGs, as 
well as for the 66,000 residents of Pico Rivera.
    While the concerns expressed in my testimony are based on 
our own experiences in Pico Rivera, you can rest assured that 
these same concerns are shared and echoed by every member of 
the Gateway Cities COG.
    There is no doubt that the Gateway Cities benefit from a 
superb transportation infrastructure, an intricate system of 
road, rail, air and sea routes, that have made the Gateway 
Cities the industrial powerhouse of Los Angeles County.
    There is also no doubt that the completion of the Alameda 
Corridor will bring even more economic development opportunity 
and prosperity to the region and to the individual Gateway 
Cities, including Pico Rivera.
    But the railroad component of this ambitious project comes 
with a price.
    The addition, by BNSF, of a 15-mile long third track 
through Pico Rivera and neighboring cities has raised many new 
concerns about pollution, congestion, noise and safety. By the 
year 2010, when the Alameda Corridor is fully operational, rail 
traffic is expected to triple.
    In our case, that will mean more than 300 trains a day 
through the very heart of our city.
    The triple track project and the pending construction of 
the Passons Grade separation have served to refocus awareness 
on our sometimes tenuous relationship with railroads, a 
relationship that began with the community's very birth in the 
1850's.
    Three major railroads now slice through our city, bringing 
with them over 100 trains a day. Thousands of vehicles and 
pedestrians are forced to cross at any one of our four at-grade 
crossings every single day. The majority of those pedestrians 
are students on their way to and from school.
    The lives of all Pico Rivera residents are affected by 
trains every day and the potential for catastrophe is extreme.
    In Pico Rivera, when we talk about the prospects of 
railroad disaster, we don't talk in terms of ``if,'' but 
rather, in terms of ``when.''
    In fact, much of the city's emergency preparedness training 
is centered around the scenario of a major railroad disaster, 
and we have already come close.
    In just the past four years, two close calls have placed 
our community in jeopardy. In the first incident, a runaway 
train careened through the city before deliberately being 
derailed in Commerce. In the second, a train derailment on the 
eastern approach to the city damaged houses and property.
    Thankfully, nobody was injured. But in other incidents, we 
have not been so fortunate. Over the past six years, we have 
lost four--let me correct that. Since this testimony was 
presented to you, we have lost five residents in railroad 
accidents, one of them a 15-year-old high school student who 
was a classmate of my son in high school. That is five too 
many.
    But train derailments and collisions are not the only 
railroad-related concerns that are a daily factor of life in 
Pico Rivera.
    The railroads continue to cause other health-related and 
quality-of-life problems that adversely impact our residents.
    It is not unusual for trains to idle for hours, sometimes 
blocking at-grade crossings. As incredulous as this may sound, 
some of these blockages have occurred when train engineers have 
slipped into the local 7-11 for a cup of coffee. In one 
incident, a group of residents informed our sheriff of an 
engineer that actually left his train to have lunch in a local 
restaurant.
    While the trains idle with their engines running, tons of 
pollutants, together with diesel and exhaust fumes, pour into 
our neighborhoods, vehicular traffic comes to a standstill and 
emergency response vehicles are severely hampered from reaching 
critical destinations.
    And of course at any time of the day there are those 
incessant whistles.
    Another major concern for our city is access to rights-of-
way of the railroads. Over the past few year, we have spent 
millions of dollars on public safety enhancements, community 
infrastructure and beautification improvements. We also 
launched a campaign to rid our community of the scourge of 
graffiti, a campaign so successful, that it has resulted in a 
60 percent reduction in graffiti.
    Our residents take great pride in the way their 
neighborhood looks and we all recognize that. Yet railroads 
rights-of-way remain eyesores. Despite all of our positive 
efforts and improvements, the railroad rights-of-way remain 
graffiti-ridden, trash-infested dumping grounds, that only 
serve as a sanctuary for vandals, criminals and transients.
    Access to these rights-of-way on a case-by-case basis by 
city personnel is imperative, if we are to be fully successful 
in our efforts to enhance the quality of life of our residents.
    At town hall meetings and in resident satisfaction surveys, 
railroad safety, noise and pollution issues constantly rate 
among the highest concerns and complaint from our residents.
    These concerns and complaints are well-founded, and a 
constant source of frustration for elected officials due to the 
railroad companies' reluctance or outright refusal to respond 
to safety, health and rights-of-way issues in a timely manner.
     Despite these setbacks, the city of Pico Rivera continues 
to take a proactive leadership stance in improving railroad 
safety and, in some cases, has met with limited success and 
support from the railroads.
    In the year 2000, we developed Railroad Safety Awareness 
Week, an innovative partnership between the railroad companies, 
Los Angeles County Sheriff's Department, the El Rancho Unified 
School District, and Operation Lifesaver.
    The week included school presentations, first-responder 
training for safety personnel, school bus drivers and city work 
crews, and ``officer on the train'' ride-alongs to enforce 
railroad crossing laws for pedestrians and motorists.
    In 2005, Pico Rivera was instrumental in the formation of a 
coalition of municipalities and agency stakeholders affected by 
the BNSF triple track project. The goal of the coalition is to 
appropriate sufficient funding for all vital grade separation 
projects associated with the project, and to work together to 
mitigate ongoing railroad health and safety issues.
    Pico Rivera has already begun the acquisition process for 
the long-awaited Passons Grade Separation Project. Passons 
Boulevard is one of the busiest thoroughfares in our city. When 
completed, the grade separation will have a major positive 
impact on the Pico Rivera community. But with rail traffic 
expected to triple within the next three years, and with three 
at-grade crossings remaining in our city, it will not be the 
end of our community's concerns relating to safety, noise, 
pollution and traffic delays.
    We have been working with the railroads for several years 
now, and have met with some limited success. However, the 
biggest issue we face is that we are just one small community 
while the railroads are national entities.
    We are very proactive while the railroads continue to be 
reactive at best.
    In the near term, we strongly urge Congress to assist local 
communities by mandating a more aggressive and responsive role 
for the railroads to play in this era of massive railroad 
expansion throughout our cities and communities, particularly 
as this expansion relates to health and safety concerns.
    Additionally, we ask that the railroads be mandated to 
grant access to their rights-of-way by cities and communities 
on a case-by-case basis, in order to mitigate safety, trash, 
graffiti, and vandalism concerns in a timely fashion.
    Congress also needs to address the most significant issue 
of transportation approximations for the most impacted grade 
crossings, that will eliminate, or at least reduce, the 
incidences of fatalities and property damage suffered by local 
communities in a major railroad corridor.
    I will be happy to answer any questions that you may have, 
and on behalf of the city of Pico Rivera and the Gateway Cities 
COGS, I thank you for your time.
    Ms. Brown. Thank you, Mayor. We try to adhere to the five 
minutes.
    Mr. Spence, it's going to be left with you now.
    Mr. Spence. Yes, ma'am. Thank you very much. Chairman Brown 
and congressional Members, thank you. Grace, you look very 
comfortable up there in that chair, like you have been there 
before.
    My name is David Spence and I'm the mayor of La Canada 
Flintridge, and president of the San Gabriel Valley Council of 
Governments.
    Eleven years ago, the San Gabriel Valley Council of 
Governments put together a project to mitigate the impacts of 
goods movement and safety and air pollution, and so forth, that 
you have all discussed in the valley.
    Our valley represents about 2 million people and we have 31 
incorporated cities and three unincorporated areas in the LA 
County of the San Gabriel Valley.
    Our cities agreed upon an action plan, a number of years 
ago, and we created the Alameda Corridor-East Construction 
Authority, and our executive director, Mr. Rick Richmond, will 
give you some details, further, about this particular rail 
improvement project.
    I would like to discuss financing briefly, challenges that 
our local officials have faced while putting together this plan 
to reduce--or increase the quality of life in the area, has 
been difficult. We have used local, State, and Federal funds to 
make this project work, and the COGs been active, working with 
Congress and the State legislature since 1999, and are grateful 
for the funds that we have received, which is approximately 
$560 million to complete the $1.4 billion ACE project.
    Our local officials have also worked with the State of 
California to recognize the urgent need for investment in rail 
safety and goods movement infrastructure. Governor 
Schwarzenegger's administration has put together and completed 
a State Goods Movement Plan, and we believe that this Committee 
would be served well by looking at this plan, when you consider 
clarifying the State and Federal roles in goods movement.
    Our local officials actively work to support the California 
State Highway bond measure, and in the San Gabriel Valley, we 
had one of the highest voting participations for the State of 
California, and it is because all the local representatives, 
the mayors and the council members, got behind this project.
    The bond includes about $250 million for grade separations. 
Unfortunately the goods movement infrastructure investment is 
so great, that these funds are merely a down payment on the 
project that we are trying to accomplish.
    Despite all the efforts of local agencies and the State, we 
don't really have sufficient resources to facilitate the 
national trade corridors without a stronger Federal role in 
this partnership. Our COG recommends that the Committee 
consider a more defined Federal role for goods movement, and we 
hope that you will seriously consider a dedicated firewalled 
freight trust fund for making those improvements, to increasing 
the safety, not only in our area but across the country.
    Our cities believe that ACE is a national model of how 
local, State and Federal agencies can work together to improve 
rail safety, congestion, and emission reductions triggered by 
the ever-increasing surge of goods flowing through California 
to the rest of the country.
    Thank you for allowing me to express these opinions today. 
I left 50 seconds for my next colleague.
    Mr. Clark. Madam Chairwoman, and Congresswoman Napolitano, 
thank you very much for having us here today. My name is 
Richard Clark. I am the director of the Consumer Protection and 
Safety Division of the California Public Utilities Commission, 
a position that I have had for the last seven years.
    Again, thank you for the opportunity to submit this 
testimony which reinforces the Commission's former executive 
director's testimony, Steve Larson, which was submitted to the 
Subcommittee on January 30th of 2007.
    Today, I would like to endorse that testimony and expand 
upon the State of California's need and desire for Congress to 
amend the Federal Railroad Safety Act of 1970.
    The FRSA, as currently written, contains an express 
preemption provision, which Federal judges have interpreted to 
preempt State law in virtually all railroad safety matters. 
Consequently, the end desired by the railroads, maintaining a 
uniform national regulatory scheme, has replaced the original 
intent of the law, increasing railroad safety, by allowing 
States to fill gaps in Federal railroad safety regulations.
    The California Public Utilities Commission, the California 
legislature, the National Association of Regulatory Utility 
Commissioners, the National Conference of State Transportation 
Specialists and the Association of State Railroad Safety 
Program Mangers, have all endorsed removing subsection 1 from 
49 U.S.C. section 20106, such that State railroad safety 
regulations will be lawful so long as they don't conflict with 
Federal law and/or they don't establish an undue burden on 
interstate commerce.
    We, at the California Public Utilities Commission, have 
been in the railroad safety regulatory business since our 
creation as the California Railroad Commission in 1911. The 
State of California has regulated railroads operating in our 
State since 1876. Therefore, we know a thing or two about 
railroads and railroad safety, which is precisely why we are so 
committed to rebalancing the authority at the State and Federal 
governments in the railroad safety arena.
    While the uniform regulatory scheme for railroad safety 
works very well in some incidents, it does not work in all 
circumstances. Ten years ago, the California Public Utilities 
Commission issued rules to provide for mitigation of local 
railroad safety hazards within California in our Decision No. 
D-97-09-045. It took us four years of very hard work to develop 
those rules.
    We worked long and hard, employed both binomial and 
multinomial statistical analyses, took round after round of 
comments from the railroads and many other interested parties, 
and thoughtfully developed rules that were designed to improve 
railroad safety in 19 local safety hazard sites in California, 
sites where the grade and curvature were extreme, and sites 
where significant numbers of derailments had occurred. Nineteen 
sites may sound like a lot, but as you can see from the map 
displayed before you on the wall, local safety hazard sites 
comprise a total of 4.2 percent of all railroad tracks in 
California and require the application of only six types of 
rules.
    Track-train dynamics rules. Training. Track Standards. 
Dynamic braking. End-of-train devices and defect detectors.
    California Public Utilities Commission has spent the last 
10 years in court fighting against the railroads' preemption 
arguments. All the while, the railroads have been implementing, 
albeit frequently after catastrophic events, the very rules 
that we attempted to put in place 10 years ago. We desire to be 
in a better position to prevent accidents, rather than 
continuing to be in a position that responds to accidents.
    We, like other States, have experienced significant numbers 
of unacceptable major railroad crashes. Before I go through the 
list, there's no counter telling me how much time I have left, 
so I hope I hit the five minute mark here. I will go quickly 
through the list.
    May 12, 1989. San Bernadino, at the bottom of Cajon Pass, a 
runaway SP train derailed.
    July 14, 1991. A Southern Pacific train derailed near 
Dunsmuir into the river.
    July 28, 1991. A Southern Pacific train was involved in a 
derailment near Seacliff.
    On December 14, 1994, a runaway train owned and operated by 
the Atchison-Topeka collided with a stationary UP train.
    On February 1, 1996, a runaway train at Cajon Pass.
    January 12, 1997. Cima grade near Kelso, lost brakes and 
ran uncontrolled train.
    September 8, 2002, at Colfax, 21 cars derailed three miles 
east of Colfax.
    March 21, 2003, at Cliff, California, eight cars derailed.
    June 20, 2003, Montclair, 37 cars rolled away and continued 
rolling for 33 miles as a runaway train.
    October 16, 2004, at Pico Rivera, derailed 11 cars.
    December 10, 2004, head-on collision between two freight 
trains.
    April 4, 2005, in Slover, California, 13 cars derailed, 
nine of them with hazardous materials in them.
    May 28, 2006, a UP freight train derailed and collided with 
another UP freight train.
    June 14, 2006, a head-on collision on the siding at Kismet. 
And November 9, 2006, a rail grinding train was a runaway train 
on the Donner summit.
    Let me close by quoting from the Commission's 1997 local 
safety hazard regulation decision. That which was said then is 
still true today.
    Quote. ``Following repeated catastrophic rail accidents and 
upon direction provided by the California legislature, we have 
availed ourselves of the authority provided by Congress to 
impose the safety precautions necessary to eliminate or reduce 
essentially local safety hazards.
    ``In doing so, we have taken great pains to ensure that 
this Commission has done nothing to weaken or conflict with the 
rightful and valuable exercise of Federal jurisdiction.
    ``The Commission has also carefully and thoroughly 
considered every safety measure to ensure that these measures 
do not unduly or unreasonably burden interstate commerce.
    ``We implement these regulations not out of any sense of 
competition or dissatisfaction with the FRA, but, rather, out 
of sheer necessity to protect California's people, its 
environment and its commerce against the disastrous 
consequences of recent rail accidents and toxic spills.
    ``In issuing this decision, we intend to complement the 
FRA's efforts and hope that both the railroads and FRA will 
join us in securing greater safety and fewer accidents in 
railroad operations in this state.''
    Thank you for the time. Trains are getting longer and more 
frequent. The State must be in a position to keep pace with 
change to prevent accidents in our constituent communities. We 
would strike subsection 1 of 49 U.S.C. 20106, so that the 
States can reclaim their rightful authority. Thank you.
    Ms. Brown. Thank you, and he needed your 46 seconds, Mr. 
Mayor.
    Mr. Richmond.
    Mr. Richmond. Thank you, Madam Chair, and Congresswoman 
Napolitano. I appreciate the opportunity to be here today and 
give you a brief update on where we are with the ACE Project, 
and specifically its attempt to, or how it addresses some of 
the safety issues you are familiar with from our global 
perspective.
    For us, it all starts with the ports. The ports of LA and 
Long Beach, as you well know, are physically right next to each 
other. Collectively, they represent the fourth largest port in 
the world. They are about six times bigger than the next 
largest port on the West Coast, which is Oakland, and they are 
actually twice the size of all the West Coast ports combined, 
as measured by the amount of container freight coming through, 
and this past year, in the LA/Long Beach ports combined, over 
16 million container units came through the ports and that is 
expected to grow steadily over the coming years.
    The picture that we just left was one of the on-dock rail 
facilities at the Port of LA, and from there, the trains 
basically go up the Alameda Corridor, as you are probably 
familiar with, a fairly recently completed 20 mile route that 
takes trains from the ports area, and then 90 percent of those 
trains fan out to the east on two railroads, the Burlington 
Northern and Santa Fe, which is the southerly blue line on the 
map, and then Union Pacific, which are the two red lines that 
you see out to the north end of that map.
    About 50 percent of the boxes that leave the ports 
naturally would be attracted to use the railroad based on where 
they're headed and the economics of moving those boxes. About 
50 percent would naturally want to end up on the freeways, and 
that's what you see as a result.
    This is the south end of the Long Beach Freeway, which 
basically is little more than a truck highway, almost all day 
and all night, be part of night, alone. So the thrust at the 
ports is to get more and more traffic off trucks and on to 
trains.
    Unfortunately, that doesn't eliminate the problem, and as 
you have heard and know well, Congresswoman Napolitano as well, 
the trains create their own problems.
    We have a program in the ACE Corridor, and in this case I 
am talking about a four county corridor area, which I will get 
to in a moment, a smaller portion of it, but basically to deal 
with the impacts at crossings. We have over 130 crossings that 
we believe need to be dealt with in terms of eliminating the 
conflicts. There are over 13,000 hours of delay per day at 
these crossings.
    We need to do this basically because we want to eliminate 
grade crossing accidents and maintain the local economic 
viability. The group that I work for is a subset of that four 
county corridor, we are in the San Gabriel Valley as Mr. Spence 
mentioned, and in our part of the program we are working on 21 
grade separations, safety improvements, serving our area which 
is about 2 million people.
    The project, when completed, will be about $1.4 billion. We 
have the first half of the program funded in terms of numbers 
of projects. Unfortunately, in terms of cost, construction 
inflation has been overtaking us and we are less than half-
funded in terms of the need for funds.
    The first emphasis in the program was doing specifically 
safety, and every one of our crossings that had deficient 
conditions, we invested the money necessary to deal with the 
most clear and obvious safety problems, the major thrust being 
for the elimination of what is called gate drive-arounds, where 
motorists will get frustrated at not seeing a train at the 
crossing and do basically an S-curve through, around one gate 
and around the other, which, you know, is a highly unsafe 
practice and usually involved in any of the most serious 
accidents at crossings.
    We, effectively, through the construction of medians, or in 
some cases, installation of four quad gates, we believe we have 
effectively eliminated that practice in our area.
    I do want to mention, at this time, because a couple of you 
brought up the issue of the school safety concern, or school 
children safety. As part of our program at all of construction 
areas, we have instituted a school safety program. We have had 
briefings at over 150 schools in the corridor and have 
distributed over 150,000 kits, safety kits to school students, 
to encourage them to be careful around railroads, particularly 
as obviously we are in construction; but at all times. Next.
    In addition to the safety program and all the major 
financial burden we have on the program is the elimination of 
crossings completely through what is called grade separations. 
We have completed two. The first one you see was opened about 
three years ago in the cities of Industry and West Covina at 
Nogales Street. We earlier this year completed a project at 
Reservoir Street in the city of Pomona. Those are both now in 
operation.
    We have a number of other ones in construction, as you see 
here, in varying degrees of completion. We are, as I mentioned, 
about halfway through our overall program in terms of number of 
locations, but not in terms of funding.
    Finally, I want to acknowledge that our favorite equipment 
operator there is on the job, recently, at every one of our 
project sites. We are looking for the remainder of the funding 
of this program, which is about $918 million for ten remaining 
grade separations.
    As has been mentioned earlier, we are actively working with 
a number of other interested parties around the Nation, and in 
advocating, as part of the authorization, we are independent 
from the reauthorization. Some establishment of some form of a 
dedicated goods movement trust fund. We think that this 
particular activity lends itself pretty well to that kind of an 
approach.
    You are dealing with a particular sector of the economy 
that is generating, frankly, a lot of revenue. It is generating 
a lot of private revenue. It is also generating a lot of 
Government revenue through customs and local economic benefits.
    So we think that there is a real opportunity here to tackle 
this program and this problem, which is major in terms of the 
Nation's economy, without necessarily competing, head on, with 
the highway trust fund problems, which you are intimately 
familiar with, I am sure, from your position on the Committee.
    So we are going to be working hard for that. We are active, 
right now, at the State level. As has been mentioned, there is 
a major goods movement--a piece of the State transportation 
bond is specific for goods movement infrastructure and we are 
working to get release of those funds. That is about $2 billion 
in State funding, and we are active, right now, on a piece of 
legislation which is similar to an issue we would like to see 
at the Federal level, which is to institute container fees in 
the ports of LA and Long Beach, and Oakland, which would fund 
specifically air quality improvements as well as the 
infrastructure needed to move the goods through this area.
    With that, I will close and be happy to answer any 
questions.
    Ms. Brown. Thank you very much. I guess my first question 
would be for all four panelists. I understand, and Ms. Johnson, 
you may be interested in this question, but California is 
second to Texas in the number of grade crossings fatalities. 
What local challenge do you face in regard to grade crossing 
challenges? I guess from each one of you, I would like some 
input.
    Mr. Richmond. As I mentioned, we are hopeful that we will 
have eliminated them, at least in our jurisdiction. Basically 
physical improvements to the crossings to make it, if not 
impossible, very difficult for vehicles to drive around the 
crossings. Pedestrian control is a little bit more difficult. 
It is harder to control. But hopefully, through education and 
adequate safety provisions at the crossings, we will not see as 
many pedestrian crossing accidents.
    Ms. Brown. One follow-up with you. I notice that you 
indicated that you wanted to eliminate the whistles that the 
trains blow. I was elected 25 years ago, and that was the first 
bill that came up that I was against, because studies show that 
when you do away with the whistles, the accidents go up. So I 
mean, how do you address that?
    Mr. Richmond. The slide where we identified elimination of 
whistles at grade separations, that does eliminate them----
    Ms. Brown. Yes.
    Mr. Richmond. --and we do accomplish that at grade 
separations. A lot of the safety improvements that we have made 
are, particularly in one city where there is an application for 
what is known as a quiet zone, which you may be familiar with, 
which is authorized under Federal Railroad regulation, that is 
the location where we put in four quad gates to effectively 
seal off the crossings, completely, and based on that and based 
on the Federal regs, we believe those locations will qualify 
for a ban on whistle blowing through the city.
    It happens, in many cases in Southern California, the 
communities have grown up significantly around the railroads. 
They may have been rather remote, when railroads were first 
built, but now, for example, in the city of Pomona, it's the 
largest city in the San Gabriel Valley, over 140,000 people, 
and the railroad literally goes right through the heart of 
town, and virtually everybody that lives in that city, and 
every business and every business district is pretty 
significantly affected, and we have about 90 trains a day going 
through Pomona.
    And as you can imagine, the whistle blowing is almost 
incessant, and so I think it is an important issue. We have 
encouraged and helped the city to meet lower requirements to 
come up with a safe way to secure those crossings, but the 
local interests are pretty significant in terms of the impact 
to the whistle blowing.
    Mr. Clark. Your question was to local issues, and since I 
work for the State, I am probably not an appropriate person to 
answer these questions, so I will pass the mike.
    Mr. Spence. Rick did a wonderful job of explaining, 
actually, what we have done in the San Gabriel Valley. It has 
been very effective, and I would urge you to make it possible 
for other communities. As a mayor of a city, we need to keep 
things quiet. Fortunately, I don't have any trains running 
through my town, but what Rick just said is very effective and 
we are happy to support that.
    Mr. Beilke. As I stated in the testimony, we have four 
grade crossings, and one of which we are doing a Passons grade 
separation but at a cost of, you know, $43 million to do that. 
So it doesn't look too positive for our other three at this 
moment, but our city is going to look furthermore into the 
quiet zone criteria. As we talk about the four quads being 
installed for the quiet zones, we actually have one crossing 
that is a slow train crossing. It is obviously not the 
Metrolink, it is a slow crossing, but there are no barriers 
there at all. There are flashing lights. And so we have some 
catching up to do to ensure the safety of our residents.
    But at this point, right now, actual precautions as far as 
possible, you know, cover the dividers so they can't grow 
around the gates. Those are things that we are going to be 
looking at in our city.
    Ms. Brown. Ms. Napolitano.
    Ms. Napolitano. Thank you, Madam Chair.
    How is your working relationship with the railroad 
communities?
    Mr. Beilke. You know, in all fairness, it has improved over 
the past couple of years. It reached a pinnacle where the 
complaints were too obvious and too egregious. We would refer 
our residents at community meetings to call the Sheriff's 
Department, because calling city hall was, for the most part, 
useless. But we have seen improvements, and daily improvement 
is coming. It is doing dialogue through communication. I did 
meet, earlier this week, with some union officials, and I 
really do see the cooperation coming.
    Unfortunately, a lot of the issues, I think, that we need 
to resolve, are monetary, and of course that is a whole other 
issue there. But overall, though, the communications has got to 
be the key to developing a collaborative relationship, to help 
us get through these issues.
    We understand the necessity of the railroad. We understand 
the railroad was there before us. But by the same token, we all 
need to be good neighbors.
    Ms. Napolitano. Mr. Clark, do you feel that the States need 
additional regulatory authority? As you have heard, critics 
have said that giving States regulatory authority over 
railroads will hinder interstate commerce and we wouldn't want 
to do that. We don't want to slow down the movement of goods 
across the country.
    But how can we work, collaboratively, to be able to make 
that happen?
    Mr. Clark. Well, the first thing is clear and good 
communication of course. But I think we need to both be in a 
somewhat equal power relationship also, because at this point 
in time we have no leverage with the FRA. We have no leverage 
with the railroads, essentially, except on narrow items.
    And so in terms of interfering with interstate commerce, it 
has never been the commission's intention to interfere with 
interstate commerce. In fact, derailments and major accidents 
interfere with interstate commerce also.
    And so it is always a balance. That is why we spent so many 
years looking at safety measures to be employed just in the 
local safety hazard areas that we have identified. I hope that 
answers your question.
    Ms. Napolitano. It does, but is there enough, or adequate 
cooperation between the State, the Federal, and the local 
governments, to maintain safety in our communities? And what 
can be done to make that better?
    Mr. Clark. Again, communication is--and spending the time 
to be able to communicate with all the people who are involved 
in the decisions is essential.
    Money, of course, helps incredibly, when it comes to the 
grade separations and the sorts of crossing problems and 
blocked crossings, and those sorts of things that you see, and 
the sorts of problems that these folks have brought to your 
attention here today. I hope that answers your question.
    Ms. Napolitano. Well, I would like to have input from some 
of your staff, because I know we have great support from them.
    Mr. Clark. I appreciate that. We try to make them as 
available as possible to you. We work with Operation Lifesaver 
to bring things to the attention of folks. We work with the 
local fraud departments. We have been working with the Office 
of Homeland Security and the Office of Emergency Services, and 
as many different agencies as we can possibly work with.
    Ms. Napolitano. Chief Nieto is in the back.
    Mr. Clark. Hi, Chief.
    Ms. Napolitano. Thank you.
    A question to Mr. Richmond. Have you had concerns with the 
Government and the railroad industry concerning your ability to 
complete the safety improvements?
    Mr. Richmond. To complete the safety improvements? No. We 
have not. We have had good cooperation, I think, on all fronts. 
We would, I think, benefit from more support, particularly 
support that translates into the cost of building some of the 
projects from the railroad. I think that they take the position 
that the grade separations are for the benefit of the crossing 
traffic, not for theirs, and frankly----
    Ms. Napolitano. That is a difference of opinion.
    Mr. Richmond. Yes, and that has been the way it has been 
for a long time. I think we would benefit from some, I think, 
help, in the way we go about the projects, it would keep the 
costs down, but in terms of, you know, being willing to 
participate and supporting the projects when we need work done, 
and things of that sort, we have good support.
    Ms. Napolitano. The last question, and this is how is the 
Alameda Corridor able to finance a trench, and why was that not 
extended into the San Gabriel Valley?
    Mr. Richmond. The Alameda Corridor was financed largely 
through user fees, tolls, if you will. There are payments made 
for every container that operates on the corridor. It is, 
unfortunately for us, a fairly unique situation. The project 
represented basically a right of way, and an ability to move 
goods out of the ports, that didn't exist without the project.
    In other words, the routes that the railroads had coming 
out of the ports were wholly inadequate to deal with the 
demand. As a result, the ports put together a program which, in 
the first instance, paid about $400 million in cash to the 
railroads to buy rights of way, so they started off with 
revenue from the project, and then they basically voluntarily 
agreed to use the Alameda Corridor, you know, for their trains, 
and then they paid a toll based on that.
    As a result, it was, out of a $2 billion construction cost, 
about a billion-six, is user fee financed. Unfortunately for 
us, as you go east of the north end of the Alameda Corridor, 
the capacity of both railroads is significantly greater. The 
Union Pacific has two lines going east and the Burlington 
Northern has one line, which is in the process of being triple 
tracked.
    So their position is it is not the same circumstance as 
they faced coming up out of the ports, that they do have 
infrastructure of their own that they feel is adequate.
    Ms. Napolitano. That makes a lot of sense. In other words, 
it can all stop in Commerce and instead go by air somewhere 
because----
    Mr. Richmond. Yes, and I think we are going to--
unfortunately, I think we are going to need to look to, I hope, 
a similar concept of user financing. It may not be as 
predominant as in the case of the Alameda Corridor. It may not 
pay for 80 percent of the cost. But I mentioned the issue of 
container fees. That is one of the sources that we think is a 
logical way to pay for what needs to be done in areas that are 
not the same as the Alameda Corridor.
    Ms. Napolitano. Thank you, sir. Thank you, Madam Chair.
    Ms. Brown. You had a follow-up, sir? Yes, sir.
    Mr. Spence. Chairman Brown, I am being told that in the LA 
Basin, where custom taxes are collected, all of those funds go 
to the Federal Government and to just general use. We are 
wondering if there is any way that a portion of those custom 
taxes, the increase in what is going to take place from now on, 
be dedicated to help finance some of these safety issues.
    It has been talked about by local council members, by our 
Alameda Corridor East, and this is just a thought that you 
might take back and look at. I don't know if it is possible. 
But it would be one way to bring more funds into the issue that 
we are trying to solve here today.
    Ms. Brown. Yes, sir, it is something that we can take back, 
but my understanding, the custom tax for the inspection, and we 
want to get to the point that we inspect all of the cargoes 
that are coming in, and so that was what we passed with the 9/
11 bill. So, you know, we are going to have to look at revenue 
sources.
    And I was thinking, can you tell me what role does the 
railroad play in the funding of these railroad crossings.
    Mr. Richmond. The grade separations are the more expensive 
parts of this whole program. There is actual Federal regulation 
that limits the railroad contribution to 5 percent, if there 
are Federal funds involved.
    Locally, we have a 10 percent--if it is only State funded, 
no Federal funds, there is a 10 percent funding for the 
railroad. But on the federally-funded projects, which many of 
ours are, there is Federal regulation which actually limits 
their participation to 5 percent.
    Ms. Brown. Ms. Johnson.
    Ms. Johnson. Thank you very much..
    My questions will be very simple. Where there is a accident 
at a crossing area, where a pedestrian or a local driver or 
something is involved, is it considered a traffic violation?
    Mr. Clark. Is it considered a traffic violation? Usually, 
it is considered a traffic violation. We investigate all of 
those. Here, in the State of California, we investigate all of 
those that involve either a death or a major injury.
    Ms. Johnson. What kind of fees do you charge for the 
violation?
    Mr. Clark. I believe it is $271 for trespassing on the 
right of way, and the citation for crossing, driving around the 
gates or violating a crossing is a criminal misdemeanor.
    Ms. Johnson. What kind of revenue do you get from that?
    Mr. Clark. The State of California doesn't get any revenue 
from that. That goes to the locals.
    Ms. Johnson. Okay. Well, I notice that there is a need for 
additional dollars, and I was trying to figure out how we could 
get them. The Federal Government really does not have them. But 
I want each of you to tell me how you would help to raise the 
revenue to get some type of additional funding. Cause every 
time we talk about--you know, the only way we have is raising 
taxes, and every time we mention that, we get beat down.
    So I know you must have some way you have thought about, 
that we could get the money for it.
    Mr. Richmond. You know, our project has been funded 
basically as a partnership, 40 percent federally funded, 40 
percent State funded, 20 percent locally, and railroad funded.
    I think, as you look around, I think you can identify that 
there are benefits that spread across all those various 
entities. The Federal side. We talked a little bit about the 
fact that there is a lot of customs revenue that does get 
generated by this activity. Obviously, for ports area, trade 
policy is what drives the business, and the fact is that 
Federal trade policy is what is causing a lot of what is going 
on, and we are not against it or adverse to it, but, obviously, 
it is the cause of what is happening in terms of the explosive 
growth we are experiencing.
    So that I think makes an argument for some Federal share. I 
think there is State--the State obviously benefits. It is a 
major economic engine for the State government also, so there 
is a State role, and I am now only talking about sort of 
traditional government type revenues. I think the big missing 
piece is what I would call the private beneficiaries. There is 
a whole string of basically private concerns involved in the 
logistics chain of international trade.
    It will end up, as most people, you know, would tell you, 
with the people who buy the products. I mean, it may take a 
while to work it through the system but it ends up with the 
people who buy the products.
    If you look at putting, as we are talking about, a $30 fee 
on a 20-foot container, and you look at, let's say, what that 
means to the price of a pair of $80 tennis shoes, it is 
probably pennies. So there is an opportunity there, in my view, 
which is the most screaming opportunity, to get participation 
from that part of the equation.
    So I think there is an argument for everybody being 
involved, because I think the benefits are either--the problem 
is either caused, or the benefits accrue across the board.
    Ms. Johnson. Thank you. Do you have any thoughts or are you 
just passing a pipe? Do you have any thoughts?
    Mr. Clark. You know, it depends on what aspect of railroad 
safety you are talking about.
    Ms. Johnson. Any kind, but most especially where persons 
cross when they are not supposed to. Nobody wants to hear 
noise, but where does the responsibility lie? Is it local? It 
has to be some type of individual responsibility. And, you 
know, Government really is not a ``cash cow.'' We have to find 
ways to raise revenues.
    But I think more and more, the citizens of this country 
will have to take the responsibilities for what they do. I 
don't believe in much being free, not even health care. I think 
people ought to pay for whatever they get, so they will 
understand the value of it.
    Now I just want to know from you, what would satisfy you to 
raise additional revenue?
    Mr. Clark. Well, I certainly think in terms of the issues 
of people crossing in front of trains and trespassing on 
railroad property, that very vigorous enforcement of the local 
laws, and fines, will raise some money that can----
    Ms. Johnson. But it also will teach people to respect.
    Mr. Clark. Yes, ma'am. It is a double benefit there. And so 
we encourage the locals to enforce as much as they possibly 
can, understanding that they have other issues that they need 
to enforce, and limited police officers, and that sort of 
thing. But when you get ticketed once for crossing in front of 
the tracks or trespassing on the railroad, you are going to 
think about it and probably not do it again.
    And then it could be used to improve the signage, to 
improve fencing in a particular area where there is a trespass 
problem, in order to improve the signal devices at the 
crossings, and that sort of thing.
    Ms. Johnson. Let me just share with you that I didn't think 
a whole lot about parking in a disabled, a handicapped parking 
spot one night, at about five minutes of the time the stores 
closed. But when I came out, I had a ticket, and it was $500. I 
have never done that again.
    Mr. Clark. Yes, ma'am.
    And I don't drive in a car pool lane in California. It's 
$271.
    Mr. Spence. It's higher now.
    Mr. Clark. Is it?
    Mr. Spence. Yes.
    Ms. Johnson. Your comment? I mean, I really want to get 
some serious thoughts from you.
    Mr. Spence. Well, the only thing that I would say is that 
hopefully, we're not going to get that much money from these 
fines because----
    Ms. Johnson. But you might want to eliminate the 
violations.
    Mr. Spence. Well, I am not that police officer, and I 
believe all of those funds that would be fined for people 
violating these rules, would go to either LA County or to the 
local jurisdiction in which they violated the regulation. Isn't 
that right, Council Member? Council Member. I am sorry. I still 
look at you as a Council Member.
    Ms. Johnson. Former.
    Mr. Spence. Former.
    Mr. Beilke. Congresswoman, you pose an interesting 
question, and you are really challenging, I think, for us to 
``think outside the box,'' and when I heard the question come 
up, locally, we are thinking of, you know, raising fines. I 
mean, a lotta cases of trespassing is by kids, and yes, I guess 
you could go after the families----
    Ms. Johnson. They have to be taught as well.
    Mr. Beilke. They do. They do. Right. And of course that 
is--you know, spending the money on the education can not only 
prevent that but obviously save lives.
    But, again, thinking outside the box, I am thinking of 
something that I am not saying I actually want to propose in my 
city, but a reverse user tax, in a sense, even those, the 
railroads that are putting the goods across, and we are used to 
taxing the railroads for the use, you know, we have a user tax 
in our city, it is 5 percent, and it generates about $4 million 
a year for our general fund, which provides vital services.
    So, you know, you are ``thinking outside the box.'' You 
know, I would not want to be the one to propose it in my city, 
but, you know, a half a percent increase to that for railroad 
safety, you know, I am sure the residents would rally against 
it, saying it is the railroads' responsibility.
    You know, of course then you have all the other users that 
traverse through our city that aren't paying the tax.
    But it poses an interesting question, and obviously I think 
it is one that this whole panel was--it is a tough one. It is 
always  finding it is tough. I mean, you know that better than 
all of us up here. But that would be my only comment. Some sort 
of reverse tax that would actually affect the residents.
    And who knows? We are starting improvements at a defined 
amount. That may be a possibility.
    Ms. Johnson. Well, thank you. I ask that because I really 
am serious about how we could generate more revenue. But I am 
also very serious about how we teach people to follow the 
regulations, because most of the time this is not the 
railroads' problem when they just violate that, and children 
have to be taught as well.
    Now we had some light rail accidents with kids just 
climbing over the fence because they didn't want to go to the 
end of the block to go across where the light was--it was a new 
light rail system.
    And I met with the PTA and the parents, and I said, you 
know, you have some responsibility for teaching your children 
not to do this. And the younger the better.
    If you are going to blame the transit system for them 
violating it, then we never will get off first base. So we do 
have to start teaching our young people early. And they were 
all fired up that night. But when they left, they realized they 
had some responsibility.
    I just appointed a committee to come up with some answers, 
because young people have to be taught, and nothing is free 
anymore. We all have some responsibility for our own safety. 
Thank you.
    Ms. Brown. Thank you, Ms. Johnson, and Ms. Napolitano, last 
question.
    Ms. Napolitano. Thank you. Director Clark, many communities 
are planning to implement the quiet zones along the railroad 
tracks. Your opinion, you stated something along that line. But 
do they decrease safety around the railroad tracks, the quiet 
zones? You know, it was something that was brought up.
    Mr. Clark. We are not sure yet because the evidence is not 
in. The quiet zone rules have not been in effect for that long, 
for us to be able to measure the safety. We are concerned. It 
is a total new paradigm to not have railroad whistles blowing 
at crossings.
    It is going to take people a while to get used to that. And 
then we just want to make sure that the supplemental safety 
measures that are put in place are such that they increase the 
safety to the same level as when the whistle is blown. That is 
what the law is designed to do.
    We certainly understand the noise impact on the local 
communities, and the hazards to health that is incumbent in 
that issue, and so we are watching and we will be measuring to 
see whether or not accidents happen in quiet zones.
    Ms. Napolitano. Are you working with those communities that 
have a lot of rail traffic through their areas, such as the 
COGS?
    Mr. Clark. Yes, ma'am. We work very actively with the local 
communities and try to get them section 130 money for improving 
the signaling devices. Section 190 money for grade separations. 
We try to get them money from the grade crossing maintenance 
fund also, to make sure that the signal devices work 
consistently.
    And when they present their quiet zone applications to us, 
we have about 11 or 12 of them at this point that have been 
approved. We have about 40 cities that have expressed interest. 
We go out and we do the diagnostic reviews with them, and we 
try to design a mitigation that fits that particular situation, 
so that it enhances safety and brings it again to the same 
levels as when it was----
    Ms. Napolitano. Are any of those along the corridor, the 
Alameda Corridor East?
    Mr. Clark. Is Placentia in the Alameda Corridor- East? 
Pomona. The city of Pomona I think----
    Ms. Napolitano. That is my district; yes.
    Mr. Clark. I think they started, just yesterday with a 
quiet zone. I could be wrong.
    Mr. Spence. -- construction authority through South 
Pasadena.
    Mr. Clark. We are certainly working with them also; yes.
    Ms. Napolitano. Not in my area.
    Mr. Clark. Right.
    Ms. Napolitano. No. But it is good to know that you are 
working with the communities, and the COGS I am sure might 
entertain a presentation to the cities to understand what you 
have and how you have certain sections, that you can help them 
with the funding to be able to achieve that. Cause I don't 
think they are totally aware of that. I know I was not, not 
that I am on the City Council anymore.
    Mr. Richmond, the status of the grade separation project in 
Montebello. I understand there is only one, and I know that 
they initially had said if they didn't trench, forget it, we 
don't want it. Is the city now working with you?
    Mr. Richmond. The city is actually, with some help from the 
MTA, has reinitiated an effort to revisit the discussion of 
what makes sense in the city. We have an adopted program that 
identified a grade separation. The city had wanted all the 
crossings in the city grade separated, and through construction 
of a trench, which, frankly, we don't feel the resources are 
liable to be there, so we basically have pushed their project 
down on our list. It is still part of our program; but they 
were not ready to proceed.
    I am hopeful that they will reactivate their effort and 
that we will be able to come up with a mutually acceptable 
proposal.
    Ms. Napolitano. The Alameda Corridor, the Alameda Corridor-
East differ in what aspect in the trench? That was built by 
LACMTA. In other words, it was planned. But there was nothing--
what was the cost?
    Mr. Richmond. The pure construction cost of the Alameda 
Corridor was $2 billion. There was about $400 million in 
financing costs, cause they are paying it off over time. So 
depending on how you define it, it is either $2 billion or $2.4 
billion. And remember, that is about a 20 mile single rail 
corridor. Our Alameda Corridor-East in just the San Gabriel 
Valley--I am not talking about San Bernadino, Riverside, 
Orange--just LA County--Alameda Corridor-East is about 70 miles 
and it has got, in effect, two separate rights of way.
    So money would be a much bigger proposition, were you to 
try to apply the exact same standard of putting it all 
underground. Our program has a limited application of that in 
one location in San Gabriel, where we really had no way to do 
it, other than to lower the railroad, and there may be other 
isolated situations.
    But because our crossings are fairly far apart, it would be 
rather expensive to put a trench through. But I guess our first 
goal would be to grade separate more than the 20 crossings we 
have planned, and right now, we don't have enough funding for 
all of those.
    Ms. Napolitano. Thank you, Madam Chair.
    Ms. Brown. Thank you all for your presentations, and in 
closing, one last question for all of the witnesses.
    I would like to know, what is your working relationship 
with the railroads. Are they responsive to the local railroad 
safety concerns, and can you provide any examples? And we will 
start with you, Mr. Mayor.
    Mr. Beilke. As I mentioned earlier, it is improving, and 
that is very positive. We have heard the concerns, repeatedly, 
and they are starting to step forward and offering their 
assistance. A major one we have right now is the condition of 
the right of ways, and that is one that I believe in. This past 
week, I met with the railroad lines, and they have pledged 
their support to work with that, to work with our city staff. 
You know, again, going back to my opening testimony about 
beautification of the city, when we see the landscaping kept up 
and the streets clean, and you look down a railroad line and 
you see the sagebrush and you see the shopping carts and the 
couches, you know, that is take some wrong direction.
    But they have pledged their cooperation. The railroad has 
in the past, as far as other issues we have had, as far as 
stopping at the railroad crossings and leaving their engines 
running. Those are far and few and in between these days, and I 
will accept their pledge as far as these rights of ways go, and 
take them up on that, and a lot of the members I received this 
past week meeting with the railroads, and I intend to have our 
staff follow up on it and see where this takes us. But I am 
very optimistic that we will achieve the results we desire.
    Ms. Brown. Thank you.
    Mr. Spence. As president of the San Gabriel Valley Council 
of Governments, I hear from my colleagues in other cities, that 
the railroads are becoming much more cooperative, and I think 
that people like Congresswoman Napolitano has done a wonderful 
job of getting their attention, and helping that increased 
quality of relationship, is so evenly upgraded. So from what I 
hear, the cooperation has been very good, especially in the 
last year.
    Mr. Clark. I would characterize our relationship with the 
railroads as being okay; but not optimal. We have seen some 
significant improvement. The California legislature has become 
quite involved in railroad safety in the last few years. They 
have about doubled our staff for railroad inspection. They 
passed AB 1935 authored by Assembly Member Bermudez, AB 3023 by 
Speaker Nunez, both of which dealt with lots of railroad safety 
issues and critical infrastructure protection on railroads 
also.
    Sometimes it has been difficult banging heads with them. 
Sometimes we have succeeded with just talking with them.
    If I might, there is one program that I think might answer 
Congresswoman Johnson's question on revenue, that occurred to 
me as I was listening to the mayor, which is that in the State 
of California, we work with the local planning departments, and 
even though the railroads were there first, they were put there 
in order to attract commerce and trade. And so it is not 
unusual to find that there is going to be conflicts between 
people and railroads.
    And so we think the way to get out of much of this dilemma 
is to plan our way out of the dilemma. So we work with the 
planning departments and we try to encourage them to, if they 
are going to allow a housing development built on one side of 
the tracks and there is a school on the other side of the 
tracks, then the person, the company, whoever is building that 
housing development, needs to provide a safe way for children 
to get across the tracks.
    And so with user's fees, or with some other sort of fee 
that is tacked on to the building, this is a program that we 
put into place and we recently have gotten even more staffing 
for this place because the governor's office sees the benefit 
to planning ahead of time, and again, avoiding accidents 
instead of responding to them.
    Mr. Richmond. Our interaction with the railroad is 
primarily in the construction area, when we are trying to 
implement the project, and I can assure you that the railroad, 
Union Pacific, is extremely safety conscious on the 
construction side, and they keep a pretty close eye on us to be 
sure we are likewise and our contractors are likewise.
    Ms. Brown. Thank you all very much for your testimony.
    The last panel will come forward. We are going to have a 
five minute, only five minute break, and then we will start the 
final panel, please.
    [Recess.]
    Ms. Brown. Are the other two panelists here? Mr. Smith and 
Mr. Ojeda. Okay. Good.
    I would like to welcome you all. You are our final 
panelists today, and our first witness is Mr. Chris Roberts, 
the regional vice president of the South Operations for the 
BNSF Railroad. Welcome.
    And the next witness is David Wickersham, the chief 
engineer for the Western Region of the Union Pacific Railroad.
    And our third witness is Mr. Tim Smith, the California 
State Legislative Board Chairman, Brotherhood of Locomotive 
Engineers.
    And the final witness today is Mr. Ojeda, presenter-trainer 
for California Operation Lifesaver. Welcome, sir.
    I want to try to adhere to the five minutes so we can ask 
questions.

  TESTIMONY OF CHRIS ROBERTS, REGIONAL VICE PRESIDENT, SOUTH 
   OPERATIONS, BURLINGTON NORTHERN SANTA FE RAILROAD; DAVID 
   WICKERSHAM, CHIEF ENGINEER, WESTERN REGION, UNION PACIFIC 
    RAILROAD; TIM SMITH, CALIFORNIA STATE LEGISLATIVE BOARD 
  CHAIRMAN, BROTHERHOOD OF LOCOMOTIVE ENGINEERS; JESUS OJEDA, 
       PRESENTER-TRAINER, CALIFORNIA OPERATION LIFESAVER

    Mr. Roberts. First off, I want to thank you for the 
opportunity to appear here today on the important issue of rail 
safety.
    The South Operations for BNSF encompasses the entire State 
of California, so I am responsible for all rail operations.
    I know you have been given my written testimony, so in 
brevity, I just want to hit a couple of key points and there 
are some duplicate things that have already been said, and I 
don't want to try to go over those again.
    But, obviously, Congress plays the most important role in 
rail safety through policy and legislative matters, and it has 
to do two things, I think. It has to ensure that we have a safe 
rail network and that we also allow the railroads to play the 
vital role they do in our national economy. Those are, I think, 
the overarching themes that we are trying to accomplish.
    I am not going to get into preemption and things like that, 
but I will talk about why, at least from our standpoint, we 
think that the regulatory authority, through the Federal 
Railroad Administration, and having standardized regulations 
across our networks are so vitally important, because if you 
think about a patchwork of different regulations and rules, and 
trying to not only train your employees to comply with those 
and understanding those standards becomes very, very difficult.
    If you take the BNSF Railroad, for instance, we operate in 
28 States and two Canadian provinces, and we look at local 
cities, municipalities, and how complex they could become, we 
are very concerned about it.
    We do agree that participation in State agencies--a fine 
example here is in California, with the Public Utilities 
Commission, the CPUC, is very beneficial in assisting the FRA 
in enforcement of Federal rail standards, and also 
participating with the railroads.
    Regardless of the fact to whether there are statutory 
policies or whatever, it is in the railroad's best interest, 
for not only our employees, the communities we serve, but our 
customers, to address rail safety issues.
    I am not here to disagree with that. We may disagree with 
how we get there, but I think the overarching philosophy is 
just that. And hopefully we can have some further discussion 
about any questions that I may answer for you through your 
questions.
    Mr. Wickersham. Good afternoon, Chairwoman Brown, 
Congresswoman Napolitano, Congresswoman Johnson. My name is 
David Wickersham and I am the chief engineer at Union Pacific, 
Western Region. I am pleased to be here today and I thank you 
for the opportunity to testify about Federal, State, and local 
roles in rail safety.
    Union Pacific is fully committed to rail safety. The safety 
of our employees and operations, and the communities through 
which we operate are our priority.
    This includes employing safe practices in the 
transportation of hazardous materials and implementation of the 
comprehensive program for homeland security.
    Union Pacific is also actively engaged in efforts to reduce 
emissions associated with our operations to improve air 
quality, and quality of life for our communities located along 
our rail lines.
    For instance, a single double stack train can move the 
equivalent of up to 280 trucks, and we would rather see them on 
our railroad than on the freeways.
    Union Pacific's safety record continues to improve. We have 
made and continue to make steady progress in all three primary 
safety categories on our system. Since 2001, we have seen a 47 
percent reduction in reportable employee injuries, a 29 percent 
reduction in crossing accidents, and a 26 percent reduction in 
rail equipment reportables per million gross ton miles. These 
gains are the result of a concerted focus on safety. We 
improved the training and communication process with our 
employees. We have enhanced our mechanical and track 
inspections with technology and with training, and our grade 
crossings, we have implemented a new strategy that centers on 
high-risk corridors and a partnership with local communities to 
eliminate redundant crossings and increase enforcement of 
traffic laws.
    Union Pacific is also actively involved with safety 
regulators at the Federal, State and local levels. An example 
of this is found here in the Los Angeles Basin. In addition to 
the significant investments we have made in improving our 
track, we interact on a daily basis with inspectors from the 
Federal Railroad Administration and the California Public 
Utilities Commission. California PUC inspectors are able to 
perform a variety of rail safety inspections for compliance 
with Federal standards.
    We have also devoted extra resources to address local 
concerns by increasing our testing of joint bars on our major 
east-west routes in the Basin.
    Working with the Departments of Homeland Security and 
Transportation, and in accordance with Federal law, Union 
Pacific has also developed and implemented a hazardous material 
critical infrastructure security program.
    Here, in California, we are cooperating with California 
PUC, the governor's Office of Emergency Services, and the 
Office of Homeland Security, to enable them to review sensitive 
security information relating to security assessments, 
identification of critical infrastructure, and infrastructure 
protection plans.
    We also are actively engaged throughout Southern California 
in addressing air quality and public health concerns. In 1998, 
under an EPA rulemaking, the railroads entered into an 
enforceable fleet average agreement with the California Air 
Resources Board, that will reduce nitric oxide emissions from 
all locomotives on the south coast, on average, by 67 percent, 
and diesel particulate matter emissions by 48 percent. 
Particulate matter emissions will be reduced by another 20 
percent as a result of a 2005 memorandum of understanding with 
CARF.
    In addition, Union Pacific is introducing another 70 ultra-
low emissions locomotives into the LA Basin. These locomotives 
cut emissions by 80 percent compared with the locomotives that 
they replaced.
    Uniformity of regulatory requirements for railroad safety 
is both necessary and critical to avoid a patchwork of 
different State and local programs that will disrupt rail 
movement of interstate commerce.
    By far, the safest railroad is one that operates with a 
consistent and integrated set of safety rules, practices, 
employee training and efficiency testing. Our trains and our 
employees cross State lines on a daily basis. Subjecting them 
to different rules would create a confusing and workable 
operating environment.
    Federal safety rules take into account the broad range of 
variability in railroading and provide for these contingencies. 
However, railroads cannot meet the increasing demands for goods 
movement if they are hampered by inconsistent regulations from 
different levels of Government across State lines and local 
municipalities.
    This concludes my testimony, and thank you again for giving 
us the opportunity to be here, and I would be happy to answer 
any questions you may have.
    Mr. Smith. Good afternoon, Madam Chairwoman, and 
Congresswoman Napolitano, Congresswoman Johnson. It is a 
pleasure to be here. My name is Tim Smith. I am the State 
chairman for the Brotherhood of Locomotive Engineers and 
Trainmen, here, in California. We are part of the Teamsters 
Rail Conference.
    I am also the chairman of the National Association of State 
Legislative Board Chairmen for our organization, and on behalf 
of BLET National President Don Hahs, who was unable to be here 
today, I was asked to speak. We represent 30,000 active 
employees throughout the Nation. We also represent 70,000 
active members of the Teamsters Rail Conference.
    I would like to thank you again for the opportunity to talk 
on the subject of our views on Federal, State and local roles 
in rail safety.
    My testimony today will focus on three aspects of what we 
believe are the appropriate Federal, State, and local roles in 
rail safety.
    First, I'll address statutory and regulatory 
responsibilities. Then I will turn to safety and security of 
hazardous material shipments. Finally, I will close with some 
thoughts concerning pedestrian and highway grade crossings.
    The manner in which preemption is currently being enforced 
is unacceptable. Section 20106 of Title 49 of the U.S. Code, 
which is the Federal Rail Safety Preemption Provision, allows a 
State to adopt or continue in force an additional or more 
stringent law, regulation or order related to railroad safety, 
only when it, number one, is necessary to eliminate or reduce 
an essentially local safety hazard.
    Number two, is not compatible with a law, regulation, or 
order of the U.S. Government. And number three, does not 
unreasonably burden interstate commerce.
    The final two conditions in the statute, incompatibility 
with Federal laws and regulations and burden on interstate 
commerce, are thresholds that are almost never exceeded by a 
proposed State or local law or regulation.
    However, Federal judge after Federal judge has preempted 
State and local attempts to regulate rail safety by repeatedly 
finding that the proposal is not necessary to eliminate or 
reduce an essentially local safety hazard.
    In other words, the Federal judiciary is imposing its own 
judgment as to whether a local safety hazard exists, 
irrespective of the judgment of the State and/or local 
officials elected or appointed to make such determinations.
    Some courts have ruled that a lack of Federal regulation 
concerning a specific subject also preempts State and local 
action on that subject. This is called negative preemption.
    In response to this increasing judicial activism, the 
National Association of Regulatory Utility Commissions has 
adopted a resolution recommending that Congress eliminate the 
local safety hazard clause of section 20106. We support this 
change because it restores an appropriate balance among the 
statutory and regulatory roles of Federal, State and local 
governments.
    Action to reform preemption is all the more important in 
our post 9/11 world.
    Moving on to the issue of hazardous materials. Tragedies 
are no longer solely caused by accidents, as the terrorist 
attacks on oil and transit facilities in Spain and England in 
recent years have shown.
    The Chlorine Institute has reported that a 90-ton tank car, 
if targeted by an explosive device, could create a toxic cloud 
40 miles long and 10 miles wide. Such a toxic plume, according 
to the U.S. Naval Research Lab, could kill 100,000 people in 30 
minutes in a major metropolitan area.
    We support requiring risk and route analyses on a regular 
basis, and the development of primary and alternative routes 
for these materials as a matter of transportation planning 
strategy.
    We further believe that Federal, State, and local 
government should be in possession of sufficient information 
concerning times and amounts of shipments, so that they may 
fulfill public safety obligations.
    We do believe there is a role for all three levels of 
government to play in supporting technologies that assist in 
tracking shipments and developing procedures to minimize, to 
the greatest extent possible, the length of time dangerous 
shipments may sit unmonitored or in an unattended facility.
    Now moving on to the third phase, grade crossings. While 
accidents and injuries at public highway rail grade crossings 
have declined by between one-third and one-half in the past 
decade, accidents at private crossings have declined by only 10 
percent and the number of injuries in private crossing 
accidents has actually increased by 1 percent.
    The boundaries between public and private crossings are 
often blurred. There are over 94,000 private highway rail grade 
crossings in the United States, many of which are used by more 
than one individual.
    A private crossing should be defined as one used by a sole 
land owner or lessee. Once any other individuals routinely use 
the crossing, it should be no longer considered a private 
crossing but should be deemed a public crossing.
    We believe it is imperative that any private crossing that 
serves an industry should be held to the same standards that 
apply to highway rail grade crossing system signal 
requirements.
    The BLET feels that, at a minimum, all crossings should be 
required to have active warning devices that comply with a 
manual for uniform traffic control devices.
    Active warning devices can significantly improve the level 
of safety at these grade crossings. However, we would prefer 
that FRA prohibit the creation of new private crossings and 
work toward eliminating as many existing private crossings as 
possible, and we have made that position known to the FRA.
    If the FRA determines that it wants to allow the creation 
of new private crossings, then new private crossings should 
have active warning devices installed prior to use. If 
necessary, FRA should request enactment of legislation to 
address private crossings.
    There is one more area that needs to be addressed with 
regard to grade crossings. It's called CISD, or Critical 
Incident Stress Debriefing, for crews involved in grade 
crossing accidents. To illustrate, you cannot imagine the 
terror a train crew experiences when their train comes roaring 
around a curve at full speed and a truck, car, or pedestrian is 
just ahead. You can't blow the whistle long enough or loud 
enough, and your heart creeps up further into your throat with 
each passing yard as your closing distance races to zero.
    There are two absolute truisms when it comes to motor 
vehicles trying to beat trains at a grade crossing. Number one 
is that the train is going to take much longer to stop than the 
driver could ever imagine, and number two, sadly, is that all 
ties go to the train.
    On some railroads, crews who are involved in such an 
accident, no matter how serious, are expected to ignore the 
trauma they have just suffered and continue operating the 
train, in some cases after waiting for hours for the coroner to 
remove the deceased.
    A handful of railroads have taken a very progressive 
approach to CISD, while a few are completely uninterested. The 
majority in the middle deal with the subject to varying 
degrees. We believe that requiring, or for that matter, 
allowing a crew who has been traumatized by involved in a fatal 
grade crossing or pedestrian accident to continue operating 
their train presents a public safety hazard.
    I would like to take the opportunity today to advocate for 
the inclusion of CISD in any legislation that deals with 
highway rail grade crossing safety.
    This program should be available to all railroad workers 
involved in traumatic incidents while on the job.
    In our view, the State and local role in crossing safety is 
relatively simple, especially for a State like California. Full 
compliance and cooperation with the Federal program will result 
in significant improvement in crossing safety. We also would 
ask States and localities to take two other steps.
    One is to get tough, and I mean really tough, on 
enforcement against motor vehicle operators who violate laws 
governing motor vehicle operation over highway railroad grade 
crossings.
    Commercially-licensed drivers are governed by a complex set 
of regulations with respect to grade crossings, which include 
the type of cargo being trucked and the sort of crossing 
involved.
    We believe the frequency of motor vehicle drivers trying to 
beat the train would decline dramatically, if similarly harsh 
punishment was handed out to drivers not covered by these CDL 
penalties.
    So in conclusion, rail safety is a full-time effort, and 
there never are too few hands. When government at the Federal, 
State and local levels fulfill their respective roles, and 
coordinate their activities, so that the whole is greater than 
the sum of the parts, safety is enhanced for all of our members 
and all of your constituents.
    Once again, thanks for the opportunity to present you with 
our views and I'll be happy to take any questions you may have. 
Thank you.
    Mr. Ojeda. Thank you, Madam Chairwoman, and thank you 
Members of the Subcommittee. I would like to start by saying 
thank you for including Operation Lifesaver in today's hearing, 
in the respective roles of Federal, State, and local officials 
addressing rail safety.
    My name is Jesus Ojeda. I am a presenter-trainer for 
California Operation Lifesaver and a proud constituent of 
District 38. Presenter-trainer means I am certified to offer 
presentations to the public about the importance of practicing 
safe behavior around railroad tracks.
    I am also certified to train others to do the same. 
Operation Lifesaver is a safety education nonprofit program 
that is dedicated to eliminating tragedies at highway-rail 
grade crossings and along railroad rights of way.
    In one word, Operation Lifesaver's success is attributable 
to its volunteers. These are individuals, approximately 3000 in 
number, who dedicate our time, energy towards educating the 
public on the dangers that are present on or near railroad 
tracks.
    Many of these volunteers agree to become certified 
presenters, trained to go out to schools and other community 
venues. Our State coordinator reaches out to the law 
enforcement community, bus operators, commercial drivers, 
emergency responders and others.
    Operation Lifesaver is the education component of the three 
E's of traffic safety strategy. The three E's are simple: 
education, engineering and enforcement. These three must work 
in tandem. Operation Lifesaver programs bring these elements 
together in a way that the public can understand. All of our 
information is age-appropriate.
    Here in California, we work very diligently to educate 
various communities across the State, from schools that are 
adjacent to railroad tracks to commercial drivers that have to 
cross railroad tracks somewhere in the State.
    California Operation Lifesaver is leading the way in 
outreach to non-English speaking populations. I am one of 14 
presenters here, in California, and I am one of three 
presenter-trainers, bilingual, who share this message.
    We are the first State to train farm worker educators to 
become Operation Lifesaver presenters.
    Three California presenters and I have just returned from 
the National Conference of La Raza where we were part of the 
Latino Expo and we made great contacts to bring back to our 
communities and help support and educate our children, our 
community members.
    Some of the challenges that our operation faces, in some 
respects, we are a victim of our own success. Vehicle-train 
collisions, fatality and injury numbers have dropped 
substantially, and in the minds of some, are far less 
threatening than the loss of life we see on the nation's 
highways.
    We need to disabuse policy makers, media and others of this 
notion.
    The consequences of train versus vehicle collisions are 
carried far beyond those of a single individual, and also 
affect family members, friends, communities. You are 20 times 
more likely to die in a collision with a train than within 
another vehicle.
    A vehicle collision also disrupts a highway railroad 
crossing for hours, gridlocking communities, impairing 
emergency response capabilities, and sometimes leading to 
derailments.
    As trains carry hazardous materials, the consequences can 
be even more deadly.
    Recommendations. Please continue to fund Operation 
Lifesaver's program. Much of the funding works its way to the 
financial step programs in the State. In this regard, Operation 
Lifesaver commends your efforts, Congresswoman Napolitano, who 
amended the rail safety bill, including authorization for 
Operation Lifesaver to continue our safety education in our 
communities.
    Congresswoman Napolitano's efforts would enable Operation 
Lifesaver to launch a new pilot program whereby we could offer 
targeted, sustained outreach to communities where risk is a 
greatest in terms of incidents, and we focus by population 
density near the tracks.
    If Congress approves this program, Operation Lifesaver 
would work very closely with community leaders, school 
districts, and public/private partners to develop and implement 
programs on a sustained basis to reduce the number of tragedies 
that occur on railroad tracks.
    In conclusion, on behalf of Operation Lifesaver and our 
national support center, I thank you, Members of the 
Subcommittee, for coming here to learn first-hand about the 
challenges of rail safety in one of our busiest corridors. 
Thank you.
    Ms. Brown. Thank you. I heard our transportation for our 
next meeting, but we are going to have our questioning, and I 
guess the first question goes to you, Mr. Roberts.
    First of all, let me commend you for BSNF initiative to 
develop the local train management system. Please tell us more 
about the deployment schedule of the system, what is involved 
in it, and is the system going to be deployed here in 
California?
    Mr. Roberts. Well, as you know we've had it in test and got 
approval from the FRA in 2003, in Illinois. Our next 
implementation is going to be in Texas between--actually, 
Oklahoma and Texas. So we are implementing that. Then we have 
plans laid out to progress, but it is an expensive endeavor. 
For our network, it will be well over $500 million.
    And our plan is, based on the other demands we have for 
capital, to continue to implement as long as our revenue and 
our returns are adequate to do so.
    Ms. Brown. A follow-up.
    Mr. Roberts. It is a little bit hard for me to tell you 
what that timeline would be for our whole railroad because it 
depends on the economics and how the economy does and how well 
our railroad performs. But it is our intent, whether by 
regulation or not, it will be implemented on BNSF.
    Ms. Brown. Track defects constantly rate as one of the two 
top causes of all train accidents. Your testimony indicates 
that all BNSF tracks is regularly inspected and the business 
main line route are inspected daily. In your opinion, what 
causes these accidents? Is it lack of technology, equipment 
failure, failure to follow up with inspections, with the 
regular inspections? How is it that the railroads still 
experience so many track defect accidents?
    Mr. Roberts. Well, part of it is--it is human-based. Some 
of our inspections are done, obviously, with people out 
inspecting, and people make mistakes. That is one reason that 
we have gone so much into technology. You know, you can get to 
a certain level with all of us make mistakes, and the next 
level, to get to the next level, you really need technology.
    So our efforts with rail detection, ultrasonic rail 
detection, and things, we do different standards, improving our 
standards for our rail infrastructure, and trying to get more 
on what I will call a proactive rather than a reactive basis, 
where we try to understand when something is going to fail, 
prior to it failing. And that is really the next level, and I 
think the technology, and even including what the ETMS system 
allows you to do, will help to that. It will detect a broken 
rail.
    And some parts of our weld, depending on the system and how 
it operates, you don't have that rail fault detection after 
what we call an in-service failure breaks.
    So I think it's twofold. It is continue to train our 
people, making sure that they follow the standards and 
regulations that we have in place, and then keep moving as 
technology comes on that will allow us to be safer.
    Ms. Brown. I know that you heard the mayor's testimony 
about the coffee break and I am certain that you dealt with it. 
Can you explain to us what happened with that.
    Mr. Roberts. I don't know about the particular instance. I 
also read it in his testimony. But I assure you we don't 
condone that.
    Ms. Brown. Absolutely.
    Mr. Roberts. We have people that don't always do what 
they're supposed to do. We do have what we call our operations 
testing program, where we look at whether our employees are 
following the rules. There's blocking crossings where they're 
shutting down locomotives and complying with our idling policy. 
We have people that don't do that. and we handle that in an 
appropriate way when we--but we will react to that and we 
appreciate when we are notified of those instances, and we will 
follow up with the individuals involved.
    Ms. Brown. Yes, sir.
    Ms. Napolitano.
    Ms. Napolitano. Thank you, Madam Chair.
    Mr. Smith, Ive read with great interest, your reference to 
the employees that are involved in accidents, that are allowed 
to continue working, or even they must continue working, even 
after some tragic accident has caused trauma to them, to TSD if 
you will. I have a great interest in that issue, because it is 
true, that it is something, that it is necessary for them to be 
able to understand and deal with.
    Is there anything that needs to be done--and I don't mean 
that to say that there is necessarily--but do the railroads 
allow time, do they provide enough health referral services to 
be able for those employees to continue working effectively?
    Mr. Smith. I believe over the years, the rails, especially 
in California have improved greatly in that area. It was my 
experience as a locomotive engineer--I have, unfortunately, 
been involved in those kinds of accidents, and it is not a fun 
thing to continue your work all the way, the rest of the way 
that you have to travel. It kind of distracts you, it takes 
your mind off of things, and it is something that you can't get 
out of your head.
    But we do have peer support on the railroads, that I am 
aware of, and we also have an opportunity for these people to 
get counseling, if need be, and the railroads generally are 
pretty good about getting these crews off the trains, and that 
includes Amtrak.
    But every once in a while, you get one that slips through 
the cracks, and unfortunately, you know, you take that on a 
case by case basis.
    But, you know, there is the individual who doesn't get the 
relief that he needs, and, you know, those things need to be 
worked upon.
    But if the railroads' reaction to this sort of an incident 
were standardized, then there would be no guesswork, everybody 
would be marching to the same beat, and then there would be no 
slipping through the cracks.
    Ms. Napolitano. Thank you. A concern of course, in the last 
few years, has been the fact that I have been approached by 
individuals working for the railroad, indicating to me that 
they have very little training when they were cast into a role. 
Has that changed?
    Mr. Smith. That is a major problem. As far as I am 
concerned, the training is totally inadequate. I understand 
that the railroads have been in a hiring frenzy for the last 
few years, and that has tapered off considerably, and in the 
rush to get employees out there, in the workplace to move the 
trains, we have a cookie cutter style of conductor and engineer 
that is created out there.
    I believe that that is a harbinger for trouble down the 
road, because these people do not get that practical experience 
that we used to get back in my day, when I was a young man 
coming up in the railroad industry.
    It is important for them to see all aspects of railroad 
life. Too many times, we have a brand new engineer out in the 
territory with a brand new conductor. It is a case of the blind 
leading the blind, and I have even heard of them, two people 
like that in that kind of a situation, having a trainee working 
with them as well.
    We just can't condone that. That is something that is not 
acceptable. If anything, we need more training, not less 
training. I have seen some movements lately, from both the BNSF 
and the UP railroad, and I applaud those, but I can assure you 
that we need much more than that.
    Ms. Napolitano. Madam Chair, I believe there is some 
portion of the railroad bill that addresses that and I am 
hoping that will help the situation.
    I will submit the rest of the questions for the record, 
Madam Chair, but I do want to introduce the representative from 
Senator Diane Feinstein's office, Diego Gonzalez, who has been 
patiently in the audience. Diego, would you stand up. Thank 
you, sir.
    We did have the deputy chief of staff, Supervisor William 
Molina, but he had to leave, and we did have one of the 
councilmen from Montebello, one of the other cities that is 
affected by the ACE Corridor, and several other people who have 
come and gone, and I am sorry, I didn't get a chance to think 
about introducing them. But Madam Chair, I really appreciate 
your being here. I know we are going to have to go.
    I would like to introduce a couple of things for the State, 
for the record. One is this letter from Supervisor Molina, and 
a picture of the industry brought to us by Chief Nieto, sitting 
in the audience. Chief, thank you very much.
    Ms. Brown. Without objection.
    Ms. Napolitano. Thank you, Ma'am. I do have no time, and I 
will defer, and thank you very much.
    Ms. Brown. Mrs. Johnson.
    Ms. Johnson. I have no further questions, Madam Chair. I am 
ready to go.
    Ms. Brown. Thank you, Ms. Johnson.
    I think I have one last question Mr. Smith, I just want you 
to know that I went personally to the training class and I 
crashed, because it is clear that the train cannot stop on the 
dime, and there is a lot of steel there, and even though I 
ended up with aid  they fixed the grating, I know, for me--but 
it is important that we do have a strong educational program 
for the community and for the children, and so that they can 
understand what is involved when you go around those rail 
crossings.
    Do you want to respond to that? And in your testimony you 
talked about the private crossing and the public crossing, and 
can you tell me, in your opinion, is one safer than the other?
    Mr. Smith. I'll address that, the last part first. 
Typically, private crossings have no warning gates, no warning 
lights. They typically might have a stop sign and that is it; 
if that. So therein lies the inherent hazard. A lot of these 
private crossings are crossings that go over into industries. 
Trucks come in and out of there carrying hazardous materials, 
and other such things, and obviously, it poses a real threat, 
to not only the people that I represent but the people in the 
community as well. So that is a real concern.
    We need to do what we can to, number one, eliminate the 
crossings. If we can't eliminate them, let's put some crossing 
gates up there and make sure they are as safe as they can be.
    The second aspect of your question was addressing the 
educational aspect of grade crossing safety, and I applaud 
everything that Operation Lifesaver does, as far as getting out 
there to the public, to the children. I have been involved with 
it a little bit. It takes a lot of time, so I have to beg off. 
But they are probably the best answer towards the educational 
process in the State. In fact, they are nationwide, for that 
matter, and I have seen them do some great things.
    So to me, it seems to me that Operation Lifesaver is on the 
right track. They just need more support from all entities 
concerned.
    Ms. Brown. And Mr. Roberts, any closing remarks you want to 
make? But I do have another question. I understand that the 
railroads participation in the signaling is what? 5 percent? Do 
you know why, the history, why is it capped at 5 percent?
    Mr. Roberts. Of course it was done with the Secretary of 
Transportation. There are two separate ones, I think, that the 
deputy administrator mentioned. It is 5 percent if it is 
partially federally funded. if it is not, then it is 10 
percent. And it is not a case of, that we wouldn't like to--I 
disagreed with one statement that Mr. Richmond made about 
Alameda Corridor East. Railroads do think eliminating crossings 
is beneficial to us. So I disagree with that statement that he 
made.
    And I think it is just a matter of, again, being able to 
fund. If you look at BNSF, 28 States, and tens of thousands of 
crossings, and an ability of how many we could fund at larger 
amount. It has to have, I think, a level of reasonableness, is 
why the Secretary of Transportation put those limits on, so it 
wouldn't become a financial burden that the railroads couldn't 
comply with.
    But I do think we need to think of other ways. I agree with 
funding mechanisms. However we decide to do it. I think we have 
got to be careful about fees. Believe me, I don't want you to 
raise taxes either.
     But sooner or later, we have to understand, you know, we 
have to understand how they are assessed, I mean, from a higher 
level, whatever it is, how it is assessed, and then how are we 
going to ensure, through legislation, that it goes to what we 
want it to go to?
    I mean, too many times, it can be put in general funds and 
things like that, and that money doesn't get to apply to what 
we are trying to accomplish. So I don't think the railroads are 
necessarily categorically opposed to some kind of a fee 
structure but we just need to understand how is it assessed, 
and how are those funds applied, so we make sure that they go 
to what we are trying to solve.
    Ms. Brown. Well, you know, I know that the railroads are 
operating in the black but it causes these accidents, and we 
need to figure out how can we best--I mean, because if we can 
eliminate most of these accidents, that would cut additionally 
the cost of operating the railroads, because that is built 
into, I guess, security. It is built into insurance.
    So it is built into what you have to pay out because of 
these accidents.
    Mr. Smith. And I don't disagree. But these are large 
amounts, and depending on what the solution is.
    Ms. Brown. Yes. It is.
    Mr. Smith. I mean, huge, large amounts. And I think whether 
you're looking at railroad infrastructure or we look at highway 
infrastructure----
    Ms. Brown. Or bridges.
    Mr. Smith. Or bridges. As a Nation, we have a complex 
problem to solve, and we have to really enhance what we have 
done, because we haven't done things for several years. Which I 
agree with. But we have to be careful because we can have 
unintended consequences. If the burden becomes so heavy on a 
railroad, that it is no longer a viable transportation product, 
then it just, the freight then moves to the highway and we have 
got the highway infrastructure issues. So I think we have to be 
careful about whatever we do and understand what are the 
consequences of whatever actions we take.
    Ms. Brown. I agree. Any closing remarks, sir?
    Mr. Wickersham. Yes. I would just like to add a few 
comments. I would like to thank Congresswoman Napolitano. We 
first met two and a half years ago under very unfortunate 
circumstances. And I would just like to say we are a different 
railroad than we were two and a half years ago. We are much 
more community-responsive. I thank you for recognizing Lupe 
Valdez. Our company has placed a new position, we have 
reorganized a little bit, we have a new position, a vice 
president of Public Relations. We will have a position in 
California that Scott Moore--he is in the audience. He will be 
working with Lupe, actually, he is in a senior position, but I 
think, if you will, lined him up accordingly.
    Ms. Napolitano. Hes senior to Lupe?
    Mr. Wickersham. I don't think so. Lupe will straighten him 
out. I thank you for recognizing her. I thank you for sharing 
with us the document on the deficient bridges in your district. 
I got that from Lupe a couple days ago. I have already passed 
that on to our bridge managers. That contacts are being made 
with Caltrans as we speak, cause that could cause us some 
problems.
    You got our attention. We replaced 82 miles of wood ties 
track with concrete tie track on our two main lines through 
your district, and we are going to continue that effort until 
it is complete.
    Ms. Brown. Thank you.
    Mr. Smith, anything?
    Mr. Smith. I just think that it is important for us to 
communicate. Thereby we educate, and I applaud everything you 
are doing here. I met with Congresswoman Napolitano for quite a 
time in Washington, D.C., here, a couple months ago. We 
definitely talked about some issues that are near and dear to 
railroad labor, and it is forums such as these, that we are 
able to get those out in the open and come to some kind of a 
reasonable solution. So, again, thank you for this opportunity.
    Ms. Brown. Okay. Lastly.
    Mr. Ojeda. Yes. I would like to thank Congresswoman 
Napolitano, again, for everything you have done for Operation 
Lifesaver. I can guarantee you that we will continue working 
with our communities, our schools, our PTAs, to make sure that 
our safety message gets across to people. A lot of times, 
people are not aware of the dangers around the railroad and so 
it is our job to make sure that we get through to them. Thank 
you.
    Ms. Brown. We have two questions from Senator Feinstein's 
office, and I am going to give it to you all, in writing, so 
that you can respond back to the Committee.
    And I want to thank, not just the participants, but the 
audience, and the Congresswomen for coming, and I thank the 
witnesses for their testimony and the Members for their 
questions. Again, the Members of this Subcommittee may have 
additional questions for the witnesses, and we would ask you to 
respond to them, in writing.
    The hearing record will be held open for 14 days for 
Members wishing to make additional statements or ask further 
questions.
    Unless there is further business, the Subcommittee is 
adjourned. Thank you.
    [Whereupon, at 5:50 p.m., the Subcommittee was adjourned, 
subject to the call of the Chair.]

[GRAPHIC] [TIFF OMITTED] T7369.007

[GRAPHIC] [TIFF OMITTED] T7369.008

[GRAPHIC] [TIFF OMITTED] T7369.009

[GRAPHIC] [TIFF OMITTED] T7369.010

[GRAPHIC] [TIFF OMITTED] T7369.011

[GRAPHIC] [TIFF OMITTED] T7369.012

[GRAPHIC] [TIFF OMITTED] T7369.013

[GRAPHIC] [TIFF OMITTED] T7369.014

[GRAPHIC] [TIFF OMITTED] T7369.015

[GRAPHIC] [TIFF OMITTED] T7369.016

[GRAPHIC] [TIFF OMITTED] T7369.017

[GRAPHIC] [TIFF OMITTED] T7369.018

[GRAPHIC] [TIFF OMITTED] T7369.019

[GRAPHIC] [TIFF OMITTED] T7369.020

[GRAPHIC] [TIFF OMITTED] T7369.021

[GRAPHIC] [TIFF OMITTED] T7369.022

[GRAPHIC] [TIFF OMITTED] T7369.023

[GRAPHIC] [TIFF OMITTED] T7369.024

[GRAPHIC] [TIFF OMITTED] T7369.025

[GRAPHIC] [TIFF OMITTED] T7369.026

[GRAPHIC] [TIFF OMITTED] T7369.027

[GRAPHIC] [TIFF OMITTED] T7369.028

[GRAPHIC] [TIFF OMITTED] T7369.029

[GRAPHIC] [TIFF OMITTED] T7369.030

[GRAPHIC] [TIFF OMITTED] T7369.031

[GRAPHIC] [TIFF OMITTED] T7369.032

[GRAPHIC] [TIFF OMITTED] T7369.033

[GRAPHIC] [TIFF OMITTED] T7369.034

[GRAPHIC] [TIFF OMITTED] T7369.035

[GRAPHIC] [TIFF OMITTED] T7369.036

[GRAPHIC] [TIFF OMITTED] T7369.037

[GRAPHIC] [TIFF OMITTED] T7369.038

[GRAPHIC] [TIFF OMITTED] T7369.039

[GRAPHIC] [TIFF OMITTED] T7369.040

[GRAPHIC] [TIFF OMITTED] T7369.041

[GRAPHIC] [TIFF OMITTED] T7369.042

[GRAPHIC] [TIFF OMITTED] T7369.043

[GRAPHIC] [TIFF OMITTED] T7369.044

[GRAPHIC] [TIFF OMITTED] T7369.045

[GRAPHIC] [TIFF OMITTED] T7369.046

[GRAPHIC] [TIFF OMITTED] T7369.047

[GRAPHIC] [TIFF OMITTED] T7369.048

[GRAPHIC] [TIFF OMITTED] T7369.049

[GRAPHIC] [TIFF OMITTED] T7369.050

[GRAPHIC] [TIFF OMITTED] T7369.051

[GRAPHIC] [TIFF OMITTED] T7369.052

[GRAPHIC] [TIFF OMITTED] T7369.053

[GRAPHIC] [TIFF OMITTED] T7369.054

[GRAPHIC] [TIFF OMITTED] T7369.055

[GRAPHIC] [TIFF OMITTED] T7369.056

[GRAPHIC] [TIFF OMITTED] T7369.057

[GRAPHIC] [TIFF OMITTED] T7369.058

[GRAPHIC] [TIFF OMITTED] T7369.059

[GRAPHIC] [TIFF OMITTED] T7369.060

[GRAPHIC] [TIFF OMITTED] T7369.061

[GRAPHIC] [TIFF OMITTED] T7369.062

[GRAPHIC] [TIFF OMITTED] T7369.063

[GRAPHIC] [TIFF OMITTED] T7369.064

[GRAPHIC] [TIFF OMITTED] T7369.065

[GRAPHIC] [TIFF OMITTED] T7369.066

[GRAPHIC] [TIFF OMITTED] T7369.067

[GRAPHIC] [TIFF OMITTED] T7369.068

[GRAPHIC] [TIFF OMITTED] T7369.069

[GRAPHIC] [TIFF OMITTED] T7369.070

[GRAPHIC] [TIFF OMITTED] T7369.071

[GRAPHIC] [TIFF OMITTED] T7369.072

[GRAPHIC] [TIFF OMITTED] T7369.073

[GRAPHIC] [TIFF OMITTED] T7369.074

[GRAPHIC] [TIFF OMITTED] T7369.075

[GRAPHIC] [TIFF OMITTED] T7369.076

[GRAPHIC] [TIFF OMITTED] T7369.077

[GRAPHIC] [TIFF OMITTED] T7369.078

[GRAPHIC] [TIFF OMITTED] T7369.079

[GRAPHIC] [TIFF OMITTED] T7369.080

[GRAPHIC] [TIFF OMITTED] T7369.081

[GRAPHIC] [TIFF OMITTED] T7369.082

[GRAPHIC] [TIFF OMITTED] T7369.083

[GRAPHIC] [TIFF OMITTED] T7369.084

[GRAPHIC] [TIFF OMITTED] T7369.085

[GRAPHIC] [TIFF OMITTED] T7369.086

[GRAPHIC] [TIFF OMITTED] T7369.087

[GRAPHIC] [TIFF OMITTED] T7369.088

[GRAPHIC] [TIFF OMITTED] T7369.089

[GRAPHIC] [TIFF OMITTED] T7369.090

[GRAPHIC] [TIFF OMITTED] T7369.091

[GRAPHIC] [TIFF OMITTED] T7369.092

[GRAPHIC] [TIFF OMITTED] T7369.093

[GRAPHIC] [TIFF OMITTED] T7369.094

[GRAPHIC] [TIFF OMITTED] T7369.095

[GRAPHIC] [TIFF OMITTED] T7369.096

[GRAPHIC] [TIFF OMITTED] T7369.097

[GRAPHIC] [TIFF OMITTED] T7369.098

[GRAPHIC] [TIFF OMITTED] T7369.099

[GRAPHIC] [TIFF OMITTED] T7369.100

[GRAPHIC] [TIFF OMITTED] T7369.101

[GRAPHIC] [TIFF OMITTED] T7369.102

[GRAPHIC] [TIFF OMITTED] T7369.103

[GRAPHIC] [TIFF OMITTED] T7369.104

[GRAPHIC] [TIFF OMITTED] T7369.105

[GRAPHIC] [TIFF OMITTED] T7369.106

[GRAPHIC] [TIFF OMITTED] T7369.107

[GRAPHIC] [TIFF OMITTED] T7369.108

[GRAPHIC] [TIFF OMITTED] T7369.109

[GRAPHIC] [TIFF OMITTED] T7369.110

[GRAPHIC] [TIFF OMITTED] T7369.111

[GRAPHIC] [TIFF OMITTED] T7369.112

[GRAPHIC] [TIFF OMITTED] T7369.113

[GRAPHIC] [TIFF OMITTED] T7369.114

[GRAPHIC] [TIFF OMITTED] T7369.115

[GRAPHIC] [TIFF OMITTED] T7369.116

[GRAPHIC] [TIFF OMITTED] T7369.117

[GRAPHIC] [TIFF OMITTED] T7369.118

[GRAPHIC] [TIFF OMITTED] T7369.119

[GRAPHIC] [TIFF OMITTED] T7369.120

[GRAPHIC] [TIFF OMITTED] T7369.121

[GRAPHIC] [TIFF OMITTED] T7369.122

                                    

</pre></body></html>
